<html>
<title> - KIMBALL, LOPEZ, AND REGALBUTO NOMINATIONS</title>
<body><pre>[Senate Hearing 113-287]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-287
 
               KIMBALL, LOPEZ, AND REGALBUTO NOMINATIONS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

THE NOMINATIONS OF DR. SUZETTE M. KIMBALL, TO BE DIRECTOR OF THE UNITED 
 STATES GEOLOGICAL SURVEY; MR. ESTEVAN R. LOPEZ, TO BE COMMISSIONER OF 
RECLAMATION; AND DR. MONICA C. REGALBUTO, TO BE AN ASSISTANT SECRETARY 
                  OF ENERGY (ENVIRONMENTAL MANAGEMENT)

                               __________

                              MAY 13, 2014


                       Printed for the use of the
               Committee on Energy and Natural Resources


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

88-083 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Heinrich, Hon. Martin, U.S. Senator From New Mexico..............     5
Kimball, Suzette M., Nominee to be Director of the United States 
  Geological Survey..............................................     7
Landrieu, Hon. Mary L., U.S. Senator From Louisiana..............     1
Lopez, Estevan R., Nominee to be Commissioner of the Bureau of 
  Reclamation....................................................    11
Manchin, Hon. Joe, U.S. Senator From West Virginia...............     3
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Regalbuto, Monica C., Nominee to be Assistant Secretary of Energy 
  for Environmental Management...................................    15
Udall, Hon. Tom, U.S. Senator From New Mexico....................     4

                                APPENDIX

Responses to additional questions................................    33


               KIMBALL, LOPEZ, AND REGALBUTO NOMINATIONS

                              ----------                              


                         TUESDAY, MAY 13, 2014

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mary 
Landrieu, chair, presiding.

 OPENING STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR FROM 
                           LOUISIANA

    The Chair. Good morning.
    Let me call the Energy and Natural Resources Committee to 
order this morning. I thank the members for their help and 
attendance. This committee meets this morning to consider 3 
important nominations.
    First, Dr. Suzette Kimball, to be Director of the United 
States Geological Survey.
    Next, Mr. Estevan Lopez, to be Commissioner of Reclamation.
    Finally, Dr. Monica Regalbuto, to be Assistant Secretary of 
Energy for Environmental Management.
    These are 3 very, very important offices.
    First, USGS is an agency that helps keep our country safe 
from natural disasters and has been doing so for a long time 
with accurate mapping and scientific research. With a staff of 
over 8,000 people, USGS provides real time information critical 
to minimizing loss of life and property from earthquakes, 
volcanoes, floods, droughts, wildfires and coastal erosion, all 
problems this committee is very intimately familiar with.
    We are proud, particularly in Louisiana, to host a number 
of USGS facilities that do important work. There are many 
around the country.
    Dr. Kimball has a Ph.D., in Environmental Science in 
Coastal Oceanography processes. I was pleased to spend some 
time talking with her about coastal issues. She began her 
career working for the Army Corps of Engineers in Vicksburg, 
Mississippi. She will be introduced more fully later by a 
member of the committee.
    Mr. Lopez, Bureau of Reclamation.
    Congress established this Bureau in 1902 to construct and 
operate the dams, reservoirs and canals needed to provide water 
to allow people to live and prosper on land in the 17 Western 
States. At the same time Congress established a Reclamation 
fund in Treasury which was originally funded by the sale of 
public land and water in Western States to pay for these 
Reclamation projects. Later, 40 percent of the royalties from 
mineral leases on public lands were dedicated to the 
Reclamation fund.
    Mr. Lopez has been the Director in New Mexico, will be 
introduced further by Senator Udall, as such he clearly 
understands western water issues. We look forward to hearing 
more from him.
    But let me make a comment of personal privilege. I hope as 
this committee listens to the work that the Bureau of 
Reclamation has done for Western States, the committee will 
realize the current injustice that exists between the 17 
Western States and the 30 plus coastal States. Three producing 
coastal States have sent $218 billion to the Federal Treasury 
and have received virtually nothing back to keep water out of 
our homes.
    The Reclamation Fund is trying to keep water in homes and 
in fields and in businesses. We're trying to keep water out. We 
look forward to that discussion at a later date in this 
committee.
    Finally, Dr. Regalbuto, Assistant Secretary of Energy for 
Environmental Management, oversees the Department of Energy's 
program to clean up retroactive and chemical contamination left 
behind after a half of century of nuclear weapons production. 
It accounts for $5.8 billion of the Department of Energy's $27 
billion budget, nearly a quarter of the budget. She has a 
Ph.D., in Chemical Engineering and is recognized as an expert 
in nuclear fuel technology.
    Let me welcome all 3 of our nominees to the committee.
    I'd like to turn it over for brief opening remarks to 
Senator Murkowski. Thank you so much for your help.
    Then they'll be more formally introduced by the Senators 
present.
    Senator.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Madame Chairman. I appreciate 
the opportunity to have these nominees in front of us today. I 
welcome each of you.
    Beginning with Dr. Kimball, I note that you have been with 
the USGS since 1999. You have served as its Acting Director for 
over a year now. Your background is solid, an advanced degree 
in geology and geophysics, previously served as Associate 
Director for Geology. So again, I am encouraged by your 
background and your qualifications.
    I received a letter from a former Alaskan and friend and 
former head of USGS, Dr. Mark Myers and he speaks very highly 
of you.
    At the same time, Dr. Kimball, if you are confirmed as 
Director, you still have a pretty considerable task ahead of 
you. I think you recognize that. Many of us believe that USGS 
has suffered from no small amount of mission creep in recent 
years. I am concerned that some of the agency's newer 
priorities are perhaps pushing its core foundational missions 
to the margin. I think we see that particularly when it comes 
to the Minerals Resource Program where funding has been cut by 
roughly one third over the past decade.
    I am also concerned that USGS seems to be deemphasizing the 
budget for its core mission in natural hazard forecasting and 
warning, whether it's earthquake, volcano or flood hydrology 
programs. I consider those deserving of budget priorities since 
they are so vital for the health and safety of Americans, 
especially Alaskans. On Saturday morning I woke up to a 5.5 
rattler that shook everybody in town. It was just one of those 
reminders that seismologists look at Alaska with great 
interest.
    In my questions I am going to very briefly touch upon the 
King Cove road issue. As you know this is an issue of major 
significance for me, not only because of its impact on the 
health and safety of Alaskans in King Cove, but because, in my 
view, it's emblematic of what I think is a need for more 
balance from Fish and Wildlife Service. The Secretary, 
unfortunately, has shown little regard for the people of King 
Cove and not much interest in finding a solution at this point 
in time.
    I understand that you did not make a decision with regards 
to rejecting the road, but I do want to ask you about the Black 
Brant because I know that USGS has studied it extensively.
    Mr. Lopez, you have been nominated to be Commissioner of an 
agency with a $1 billion budget, 5,000 employees in facilities 
across 17 Western States. The Bureau and its leadership 
confront, on a daily basis, many challenging policy issues. 
Chief among them are the Bureau's efforts to strike a balance 
between its mission of water delivery and compliance with 
environmental laws and regulations at both the State and the 
Federal levels. Requirements under the Endangered Species Act 
have emerged as a strong concern and are no small undertaking 
at a time of continuous drought in so many States across the 
West.
    Mr. Lopez, you have spent many years helping manage water 
delivery in a drought racked State so I am curious as to how 
you plan to balance the need for water delivery with the limits 
imposed by environmental regulations. I do not know if you have 
viewed my energy water nexus white paper that I released last 
week, but I would be interested in your views on that.
    Finally, Dr. Regalbuto, you are nominated to lead the 
Department of Energy's environmental cleanup efforts. Your 
extensive expertise working on nuclear waste related issues 
should be valuable in addressing the pressing challenges to the 
Office of Environmental Management, including the situation at 
the Waste Isolation Pilot Plant and ongoing, overall nuclear 
material cleanup efforts. I am interested in hearing your 
thoughts on how best to proceed on issues related to the back 
end of the nuclear fuel cycle.
    Madame Chairman, again I want to say how pleased I am to 
have these well qualified nominees. I think most of them appear 
to be pretty non-controversial. So if the hearing goes well and 
we do not have any significant concerns emerge, I believe we 
will be able to report them from our committee soon.
    The Chair. Thank you very much.
    Let's begin with Senator Manchin, who is a member of the 
committee and would like to introduce further, Dr. Kimball.

 STATEMENT OF HON. JOE MANCHIN, U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madame Chairman.
    I would thank all of you for having this important hearing 
today because we have fine people, I believe, that will serve 
and have served very, very applicably and very well.
    I'm happy to be able to introduce Dr. Suzette Kimball 
today.
    Last month I had the pleasure of meeting with Dr. Kimball, 
who has lived in Summit Point, West Virginia for almost 16 
years. We both have a passion for the rich history of our 
shared State. Dr. Kimball is an active member of the Eastern 
Panhandle's farmland and the historic preservation communities.
    In fact, she and her husband, Curt, live at White House 
Farm. It's a local landmark built in the 1740s and used during 
the Revolutionary War to aid American troops. The farm was even 
surveyed by George Washington.
    Beyond our personal connection, Dr. Kimball impressed me 
with her dedication to the scientific mission of the U.S. 
Geological Survey. We had in depth talks about that and also 
what we do overseas. The USGS services a vital role working to 
understand and improve responses to national disasters, 
providing needed information on energy and mineral resources, 
monitoring our waters and many other indispensible services.
    In her testimony Dr. Kimball details her upbringing in a 
family that prioritized public service both in military and 
civilian life, something West Virginians pride themselves on. I 
believe she will bring this to her role as Director of the 
USGS. I'm delighted that Dr. Kimball has chosen West Virginia 
her home. I encourage my colleagues to support her nomination.
    Thank you, Madame Chairman.
    The Chair. Thank you so much, Senator Manchin.
    Senator Udall and Senator Heinrich wanted to give 
additional remarks in reference to Mr. Lopez's nomination.
    Senator Udall, why don't you proceed?

           STATEMENT OF HON. TOM UDALL, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairwoman Landrieu and 
Ranking Member Senator Murkowski. Good to be with you here 
today.
    I'm pleased to be here along with Senator Heinrich to 
introduce Estevan Lopez of New Mexico for this committee's 
consideration as the next Commissioner for the Bureau of 
Reclamation.
    As we all know water is a defining issue of today's 
American West. We're in the midst of a historic drought, the 
worst drought in half a century in my State. The harsh 
realities of climate change raise troubling questions whether 
this is a drouth or the new normal, sustainable water is 
crucial.
    Failure is not an option because it means that our 
communities may run out of safe drinking water.
    That our farmers will not be able to provide the food we 
put on the table.
    That species that depend on the land and rivers will not be 
able to thrive.
    That our forests will be ravaged more frequently by massive 
wildfires.
    That when the rain does come our homes are threatened by 
catastrophic floods.
    These are great challenges. The Bureau of Reclamation plays 
a pivotal role. The selection of its Commissioner is not 
something to be taken lightly. That is why I'm honored to 
introduce Mr. Lopez today.
    First and foremost, Estevan is a veteran water manager. For 
more than 2 decades he has been engaged in water issues in 
government and in the private sector. At the local and State 
level as a public utility engineer, as a county manager in 
Santa Fe, New Mexico, Estevan has always been--has always 
brought a command of policy, a sharp intellect and deep rooted 
desire to resolve problems.
    Since 2003 Estevan has led the New Mexico Interstate Stream 
Commission. As the Executive Director and Deputy State Engineer 
he has helped direct New Mexico water policy. let me tell you 
water issues in New Mexico aren't easy.
    Estevan has worked for 2 different administrations, one 
Democratic, Governor Bill Richardson, who many of you on this 
panel know and one Republican, Governor Susana Martinez and in 
one of the most important appointed positions in the State. 
Very few people can say that. He has shown great ability to 
work with all commerce to identify complex problems and to find 
solutions.
    One of the words I've heard used to describe Estevan is 
unflappable. That quality has served him and us well allowing 
him to work with diverse interest groups and at times to 
disagree without being disagreeable. I expect that unflappable 
will be on display today. Unflappability will be on display 
today.
    I regret that New Mexico will be losing the benefit of 
Estevan's service to the State. But I know he will ably follow 
in the footsteps of my good friend, Mike Connor, as the next 
great Commissioner for the Bureau of Reclamation from New 
Mexico.
    I look forward to continuing to work with Estevan on the 
challenges facing our State and the entire West. I'm very 
pleased to support his confirmation.
    Thank you very much, Madame Chair.
    The Chair. Thank you very much for that thoughtful 
introduction.
    Senator Heinrich.

        STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Heinrich. Madame Chair and Ranking Member 
Murkowski, I'm very pleased to join Senator Udall today in 
introducing Mr. Estevan R. Lopez as the nominee for Director of 
the Bureau of Reclamation.
    Mr. Lopez's qualifications are exemplary.
    He has served as Director of the New Mexico Interstate 
Stream Commission since 2003. In this capacity Mr. Lopez has 
played a key role in implementing the Taos and Aamodt Indian 
Water Settlements insuring that our tribes and pueblos have 
fair access to water rights. His nomination, I would note, has 
overwhelming support from New Mexico's tribal communities.
    Mr. Lopez has also served as Land Use and Utilities 
Director of Santa Fe County from 2000 until 2001. As Utilities 
Department Director of Santa Fe County from 1998 to 2000 and as 
Utilities Division Deputy Directory of Santa Fe County from 
1997 to 1998. Was a public utility engineer at the New Mexico 
Public Utility Commission from 1990 until 1997.
    Mr. Lopez has additional private sector experience as well 
working as an operations engineer and well work supervisor for 
Arco Alaska Incorporated.
    As we all know the Bureau of Reclamation is of critical 
importance to the entire Western United States providing water 
to more than 31 million people. In New Mexico today State, 
local and tribal authorities are currently working with the 
Bureau of Reclamation on some incredibly important water supply 
projects. These efforts include the Navajo Gallup Water Supply 
Project which will provide clean, reliable water to 43 Navajo 
chapters, the city of Gallup and the Jicarilla Apache Nation, 
serving a quarter million people by 2040.
    The Bureau is also a critical partner in the Eastern New 
Mexico Rural Water System project which will provide long term 
water security for the citizens of Curry and Roosevelt Counties 
as well as Cannon Air Force Base.
    With the Western United States experiencing severe drought 
and increased wildfire conditions and water levels decreasing 
to dangerously low levels in nearly every river basin, the 
Bureau of Reclamation's responsibilities underscore the 
importance of having a skilled and experienced leader as 
Commissioner. While Deputy Secretary Mike Connor has left some 
big shoes to fill at Reclamation, Estevan Lopez has extensive 
experience with water management in New Mexico make him an 
ideal candidate to step into those shoes.
    Madame Chair, thank you for holding this hearing today for 
the committee to consider all of these important nominations. I 
yield back the balance of my time.
    The Chair. Thank you very much, Senator.
    If the nominees would take their seats at the table, please 
and then stand for your oath of testimony?
    Oath of testimony?
    [Laughter.]
    The Chair. If you all would please stand and raise your 
right hands? Raise your right hand.
    The rules of the committee which apply to all nominees 
require that they be sworn in in connection with their 
testimony.
    Do you all solemnly swear that the testimony you are about 
to give this committee, Senate and Energy Natural Resources, 
shall be the truth, the whole truth and nothing but the truth, 
so help you God?
    [Witnesses respond, I do.]
    The Chair. Please stay standing.
    Before you begin your statement I will ask these 3 
questions to each nominee.
    Will you be available to appear before this committee and 
other Congressional Committees to represent departmental 
positions and respond to issues of concern to Congress?
    [Witnesses respond, I will.]
    The Chair. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you have been 
nominated by the President?
    [Witnesses respond, no.]
    The Chair. Are you involved or do you have any assets held 
in a blind trust?
    [Witnesses respond, no.]
    The Chair. Please be seated.
    OK, at this time we will hear your opening statements. If 
you could limit it to the time allotted, we would appreciate 
it.
    Let's begin with Dr. Kimball.

TESTIMONY OF SUZETTE M. KIMBALL, NOMINEE TO BE DIRECTOR OF THE 
                UNITED STATES GEOLOGICAL SURVEY

    Ms. Kimball. Chair Landrieu, Ranking Member Murkowski and 
members of the committee, I'm honored to appear before you 
today as President Obama's nominee to be the Director of the 
U.S. Geological Survey.
    My husband and I are proud West Virginia residents, not by 
birth, but by choice. I very much appreciate Senator Manchin's 
kind introduction. Thank you.
    I was raised to not only value public service, but also to 
see it as a responsibility. My heart beats faster watching the 
troops passing in review, seeing the flag or riding in a Fourth 
of July parade in our small town.
    My father and brother had military careers. My mother was a 
teacher. Both my uncles were in civil service. Most of my 
cousins served in the military or civil service or are 
educators. For me, public service is kind of like the family 
business.
    Unlike many of the Interior nominees that appear before 
this committee, I cannot point to a childhood steeped in 
outdoor experiences that set the stage for my career path. 
Despite the focus on science brought by my father, a physicist 
and engineer with the Army Signal Corps and my mother, who 
taught Health Sciences, I started my academic career in English 
Literature. However, I had the good fortune to take a Geology 
course from an extraordinary educator, Dr. Gerry Johnson. His 
compelling lectures engaged my imagination and passion for 
understanding the processes that drive Earth systems and the 
impacts of natural hazards.
    My master's degree program focused on field geology and 
geophysics. Important issues addressed by USGS science 
incorporate those fundamental aspects, the understanding of the 
processes that drive both the physical and biological systems 
and understanding the risk imposed by potential impacts of 
those processes.
    My Ph.D., program at the University of Virginia showed me 
the value of an integrated Environmental Sciences context that 
forces one out of narrow academic boundaries and requires 
competence in a spectrum of disciplines. My particular research 
area, Coastal Beaches and Barrier Islands, is the poster child 
for an integrated approach. This perspective will serve me well 
if confirmed as the USGS Director as the questions we face 
today also transcend traditional academic fields and ask us to 
understand not only the geologic foundation and the operative 
physical processes but also the potential impacts to biological 
systems and to the human environment.
    I've had the good fortune to serve in both academia and in 
the Federal Government. My years with the National Park Service 
gave me an understanding of the pressures that land managers 
face and the types of information that can be most useful to 
them. This experience gives me a unique perspective to support 
and partner with the entire department.
    Since coming to the USGS in 1998 I've had the opportunity 
to see the breadth and depth of this outstanding organization 
from many perspectives. USGS is an unusual Federal agency. The 
longevity of careers here is remarkable.
    But also noteworthy is that unlike many of our sister 
bureaus at Interior, we do not issue regulations nor do we 
manage resources. Without a regulatory or management mandate 
the USGS provides impartial science that meets the demands of 
the changing world around us. This scientific nature of the 
USGS, its national perspective and its non regulatory role 
enable USGS science to be both policy relevant and policy 
neutral.
    Since its founding in 1879 the USGS has made enormous 
contributions to the health and well being of the country and 
to the world. These achievements include the science that has 
delineated the mineral and energy resource base of the Nation.
    That helps protect lives and livelihoods from the effects 
of natural hazards.
    That ensures safe public water supplies.
    That supports the restoration of ecosystems.
    Provides assistance to the Nation and other Nations for 
resource and hazard issues.
    Our society faces pressing issues that science can and must 
help address. Challenges like ensuring sustainable development 
of energy and mineral resources, dealing with climate change, 
coping with natural disasters and ensuring water and food 
security. We live in a global economy. Understanding the 
worldwide distribution of both resources and risks is essential 
to the country's security and to its economic health.
    Looking to the future we need to continue these efforts for 
which we have unique capabilities and on which the public 
relies such as the stream gauge network or mineral and energy 
assessments, our seismic networks, just to name a few. But we 
also need to be responsive to emerging needs.
    We are increasing the involvement of sociologists and 
economists in our studies in order to provide better products 
for the American people.
    We are providing new technologies to protect public health 
and safety and new tools for communities to become resilient in 
the face of challenges such as changing climates or water 
scarcity.
    We are engaging young scientists to be part of our future.
    I'm deeply grateful that Secretary Jewell and President 
Obama have chosen to nominate me to lead this outstanding 
scientific organization. If confirmed, I look forward to 
working with you to address the challenges facing our Nation.
    Thank you for this opportunity to appear before you. I will 
be happy to respond to your questions.
    [The prepared statement of Ms.. Kimball follows:]

  Prepared Statement of Suzette Kimball Nominee to be Director of the 
           U.S. Geological Survey, Department of the Interior
    Chair Landrieu, Ranking Member Murkowski, and Members of the 
Committee, I am honored to appear before you today as President Obama's 
nominee to be the Director of the U.S. Geological Survey. I would not 
be able to appear before you today without the encouragement of my 
family and the love and support of my husband, Curt Mason, who 
rescheduled major surgery so he could be here with me today. I am also 
grateful to my other family: the employees of the USGS. Every day, I am 
inspired by their dedication of time, talent, energy, and intellect. It 
has been a privilege to serve as their Acting Director, and it is an 
honor to be offered the opportunity to lead this outstanding 
organization.
    I was raised to not only value public service but also see it as a 
responsibility to our country. I am one of those whose hearts beat 
faster watching the troops passing in review, hearing the Washington 
Post March, seeing the flag, or riding in a small town 4th of July 
parade, which is one of the privileges I have enjoyed living in West 
Virginia. My father and brother both had military careers; my mother 
was a teacher; both my uncles were in the civil service; and most of my 
cousins have served in the military or civil service, or are educators. 
For me, public service is kind of like the family business.
    Unlike many of the Department of the Interior nominees who have 
come before this Committee, I cannot point to a childhood steeped in 
outdoor experiences that set the stage for my career path. With the 
exception of our family vacations at the beach, I tended to spend my 
spare time in the library. And despite the focus on science brought by 
my father, a physicist and engineer with the Army Signal Corps, and my 
mother, who taught health sciences, I started my academic career in 
English literature. But as I approached my senior year, I had the 
singular good fortune to take a geology course from an extraordinary 
educator, Dr. Gerry Johnson, and my world view changed. His compelling 
lectures brought to life the extraordinary forces that shaped the earth 
and engaged my imagination and passion for understanding the processes 
that drive earth systems and the impacts of natural events.
    My Master's degree program focused on field geophysics and 
impressed upon me two things that have been valuable in my tenure at 
USGS: I studied the transport of contaminants in ground water which 
shifted my focus from the purely theoretical sciences to an 
appreciation for the applications that science can bring to the human 
environment. Almost all the issues addressed by USGS science 
incorporate two fundamental aspects: understanding how physical 
processes drive both the physical and biological systems; and how that 
basic knowledge can be applied to management or policy decisions. 
Second, at the time I received my M.S., very few women were graduating 
with degrees in geophysics. Having experienced being a minority in my 
field of study, I am compelled to reach back--to provide opportunities 
for the next generation of scientists, especially from underserved 
communities, to create a mentoring culture and an inclusive workplace.
    My Ph.D., program at the University of Virginia provided the third 
transformative experience that will serve me well if confirmed as the 
USGS Director. UVa's earth science program was presented in an 
integrated environmental sciences context that forced one out of narrow 
academic boundaries and required competence in a spectrum of 
disciplines. My particular research area, coastal beaches and barrier 
islands, is the poster child for an integrated approach. The questions 
that are posed of a USGS scientist today also transcend traditional 
academic fields and ask us to understand not only the geologic 
foundation and the operative physical processes, but also the potential 
impacts to the biological systems and to the human environment. My 
academic training and subsequent professional positions at the Virginia 
Institute of Marine Science (another integrated program) and back at 
UVa are particularly suited to understanding and advocating for a 
comprehensive, multidisciplinary science program.
    I have had the good fortune to work in both academia and in the 
federal government, both of which satisfy my public service ethic. 
Immediately prior to USGS, I worked for the National Park Service, 
first as a research scientist and, ultimately, as the Associate 
Regional Director for Resource Stewardship and Science in the 
Southeast. This experience, besides having the opportunity to work in 
some of the most beautiful places in the country, gave me an intrinsic 
understanding of the pressures that land managers face and the types of 
information that can be most useful to them considering the types of 
decisions that need to be made. Given that USGS sits in the Department 
of the Interior with some of the world's most respected land and 
resource management agencies, I believe this experience will give me a 
unique perspective to create a coordinated science framework to support 
and partner with the entire Department.
    I came to the USGS in 1998. Since then I have had the opportunity 
to see the breadth and depth of this organization from many 
perspectives. First as Regional Executive for Biology, then as Regional 
Director, Associate Director for Geology, Deputy Director and Acting 
Director, I have been able to be engaged with all parts and all mission 
areas of this organization and to participate in some of the 
transformative enterprises of this great agency. Recently, I 
participated in a celebration of the first USGS streamgage, still in 
operation 125 years later, on the Rio Grande in Embudo, New Mexico. 
While celebrating our history and one of our iconic monitoring systems, 
I have also had the opportunity to work with a group of our scientists 
to design and deliver a Center for Innovation in the Earth Sciences 
which takes advantage of private sector capabilities and advances in 
technologies for the 21st century and beyond. I have been able to work 
with local communities to bring community-driven water sampling 
projects to fruition as exemplified by the USGS partnership with the 
Yukon River Intertribal Watershed Council, connecting with Alaskan 
native communities; and on the international landscape to address 
critical mineral and rare earth concerns, global mapping and data 
sharing, and hazards response. I was privileged to watch the flawless 
launch and deployment of Landsat 8, which continues a 42-year history 
of earth observations. And I have had the opportunity to apply my own 
research expertise in coastal systems and catastrophic storms as we 
responded to such events as Hurricane Katrina and Hurricane Sandy.
    I have heard some say that Federal workers are not pulling their 
weight. I see just the opposite at the USGS: in small things, like 
offering to take extra furlough days last year in order to save their 
colleagues from financial hardship, or staying late to collect that 
last sample-- or big things, like dedicating their careers to providing 
the information that is used by decision makers and the public to save 
lives, enhance quality of life, sustain communities, and support the 
resources everyone needs. Just last week I participated in the annual 
USGS Honor Awards ceremony and presented a record number of 40-year 
service awards--and in past years we have recognized 50 and 60 years of 
service. Even after they retire, many of our scientists keep working as 
volunteers, publishing their research and mentoring younger scientists. 
This has always been a great strength of the USGS: the loyalty and 
dedication to mission that keeps our employees working productively 
when they are 70, 80, or 90 years old and the mentoring culture that 
nurtures the next generation of scientists.
    USGS is an unusual Federal agency in many ways. The longevity of 
careers here is remarkable (my 15 years puts me less than halfway 
through the average USGS scientist's career) but also noteworthy, 
unlike many of our sister bureaus at Interior, we do not issue 
regulations nor do we manage resources. Without a regulatory or 
management mandate, the USGS provides impartial science that meets the 
demands of the changing world around us. USGS scientists work to 
describe and understand the Earth, its processes, and its living 
resources, providing reliable, timely scientific information that 
serves the Department of the Interior, the Nation, and the world. Field 
investigations, direct observations of natural science processes, and 
monitoring and data collection at scales from local to national and 
even global are the foundation of USGS research. The scientific nature 
of the USGS, its national perspective, and its non-regulatory role 
enable USGS science to be both policy relevant and policy neutral.
    Since its founding in 1879, the USGS has made enormous 
contributions to the health and wellbeing of the country--and the 
world. These achievements include the science that has delineated the 
mineral and energy resource base of the Nation; that helps protect 
lives and livelihoods from the effects of earthquakes, wildfires, 
volcanic eruptions, landslides, and floods; that continues to provide 
safe public water supplies; that supports restoration of ecosystems 
throughout the United States; and that provides assistance to other 
nations for resource and hazard issues. The diversity of scientific 
expertise within the USGS enables it to carry out large-scale, multi-
disciplinary investigations that build our knowledge about the Earth 
and give decision makers at all levels of government, and citizens in 
all walks of life, the science information they need.
    Our growing and expanding society faces pressing issues that 
science can and must help address -issues like ensuring sustainable 
development of energy and mineral resources, dealing with climate 
change, coping with natural disasters, and ensuring water and food 
security. We live in a global economy; understanding the worldwide 
distribution of both resources and risks is essential to the country's 
security and economic health.
    Looking to the future, we need to continue those efforts for which 
we have unique capabilities and on which the public relies, such as the 
streamgage network, but we also need to look at ways to be relevant to 
the public's emerging needs. Consequently, we are engaging our 
sociologists and economists to an ever increasing degree in our studies 
in order to bring our science to the American people; we are providing 
new tools and technologies to protect public health and safety, whether 
that is earthquake early warning, or our focus on environmental health 
including the impacts of extractive resource development; we are 
providing new tools for communities to become sustainable and resilient 
in the face of challenges such as changing climates or demands 
affecting water use and availability; and if we are to also be 
resilient and sustainable, we need to engage young scientists to be 
part of our future.
    We have a 135-year long and storied history at USGS, and still a 
lot of work and contributions to make in the next 135 years.
    I am deeply grateful that Secretary Jewell and President Obama have 
chosen to nominate me to lead this outstanding scientific organization. 
If confirmed, I look forward to working with you to address the 
challenges facing our Nation.
    Thank you for the opportunity to appear before you. I will be happy 
to respond to your questions.

    The Chair. Thank you very much, Dr. Kimball.
    Mr. Lopez.
    Turn on your mic and speak closely into it.

 TESTIMONY OF ESTEVAN R. LOPEZ, NOMINEE TO BE COMMISSIONER OF 
                   THE BUREAU OF RECLAMATION

    Mr. Lopez. Chair Landrieu, Ranking Member Murkowski and 
members of the committee, good morning. Thank you also for the 
opportunity to meet with several of you in person over the last 
few days.
    Unfortunately my family is not able to join me here today. 
Nonetheless I want to acknowledge the importance of my family. 
I remain grateful for the love and the continuing support of my 
wife, Suzanne, and our children, Victoria and Juan.
    I greatly appreciate that New Mexico Senators Heinrich and 
Udall were gracious enough to introduce me to this committee. I 
also sincerely appreciate the letters submitted on my behalf by 
retired New Mexico Senators Bingaman and Domenici.
    I'm a professional engineer, who has served as Director for 
the New Mexico Interstate Stream Commission under both 
Republican and Democratic Governors in New Mexico. With over 2 
decades of water resource management experience I have worked 
directly on many of the issues that affect water management 
throughout the Western United States.
    By way of telling you a little bit about myself, I am a 
native New Mexican and have lived most of my life in New 
Mexico. I grew up irrigating pastures from centuries-old 
acequias, community irrigation systems, that are fed by the Rio 
Santa Barbara, a small tributary of the Rio Grande originating 
in the Sangre de Cristo Mountains thus beginning a lifetime of 
work in water management. I attended New Mexico Tech in 
Socorro, New Mexico and was conferred a Bachelor of Science 
degrees in petroleum engineering and chemistry in 1979.
    Upon graduation I went to work in oil production in Prudhoe 
Bay, Alaska working for Arco Alaska.
    A few years later I went to work in the New Mexico Public 
Utility Commission reviewing the sufficiency of water rights 
portfolios and the adequacy of water management policies of the 
privately owned public utilities that we regulated.
    After a few years I had an opportunity to help the County 
of Santa Fe start a new water utility. At Santa Fe County, I 
led the County Utility Department, then the County's Land Use 
and Utility Department and ultimately I became the County 
Manager.
    When Governor Richardson was elected I was asked to be the 
Director of the New Mexico Interstate Stream Commission in 
2003.
    When Governor Martinez was elected she reappointed me in 
2011.
    My time at the Interstate Stream Commission has been a 
fascinating mix of technical, legal, financial and political 
challenges. It has been a perfect training ground for someone 
asked to serve as Commissioner of Reclamation allowing me to 
learn about and deal with many of the issues Reclamation is 
faced with, albeit, at a regional scale.
    I have had the privilege to represent New Mexico as 
Governor Martinez's representative to the Colorado River 
Compact, New Mexico's Commissioner to the Upper Colorado River 
Compact and Canadian River Compact Commissions and New Mexico's 
Engineer Advisor to the Rio Grande Compact Commission.
    I have been involved in finding river management solutions 
to difficult endangered species issues on the Rio Grande, 
Colorado, San Juan, Pecos and Canadian Rivers. These efforts 
for balancing the preservation of endangered species with other 
resource goals, most importantly the protection of water users 
in the arid Southwest, has required innovation, collaboration 
and perseverance.
    My work with colleagues in New Mexico--I have worked on 
settlements of Indian Water Rights Claims of 6 of the States, 
Indian Nations and Pueblos. Successful resolution of Native 
American Water Rights Claims is critical to water security for 
all Americans, not just for our Native American communities.
    I have worked on the development of Eastern New Mexico 
Rural Water Supply Project to deliver renewable surface water 
from Ute Reservoir on the Canadian River to communities like 
Clovis and Portales, New Mexico. Without this water supply 
project these communities are expected to begin running out of 
water within 10 years.
    During my tenure New Mexico completed the last of 16 
regional water plants as well as its first formal State water 
plan. All these water plans are currently being updated.
    I am proud of the work that we have done during my time 
with the Commission helping to assure water security for our 
people, particularly in the last several years of record 
setting drought. These efforts have required establishment of 
strong relationships with diverse stakeholders including our 
neighboring States, local governments, Indian tribes, 
agriculture and municipal water users, power users and 
environmental interests.
    Interestingly one of our key partners in almost all our 
efforts I have described has been the Bureau of Reclamation. 
Now President Obama and Secretary Jewell have seen fit to 
nominate me to serve as Commissioner.
    As you know, Michael Connor, who was recently confirmed as 
Deputy Secretary for the Department of Interior, most recently 
held the position of Commissioner of Reclamation. I know Mr. 
Connor well and realize that he leaves large shoes to fill. I 
am excited by the challenge this presents and believe that my 
professional experience has prepared me for the challenge.
    I'm also comforted in knowing that I will be joining a 
strong team.
    If confirmed I am committed to working with the public, 
affected stakeholders and Congress to collaborate to find 
balanced solutions to the water resource and hydropower 
generation challenges facing the Western United States.
    Thank you for the opportunity to address my nomination. I 
look forward to continuing to work with you. I will be happy to 
respond to questions at the appropriate time.
    [The prepared statement of Mr. Lopez follows:]

Prepared Statement of Estevan Lopez, Nominee to be Commissioner of the 
                         Bureau of Reclamation
    Chair Landrieu, Ranking Member Murkowski, and members of the 
Committee, I am honored to appear before you today. Thank you also for 
the opportunity to meet with many of you in person over the last few 
days. Unfortunately, given work and school commitments, my family could 
not join me today. Nonetheless, in their absence, I want to acknowledge 
the importance of my family in whatever professional success I have had 
to date. I remain grateful for the love and continuing support of my 
wife Suzanne and our children Victoria and Juan.
    I greatly appreciate that New Mexico Senators Heinrich and Udall 
were gracious enough to offer to introduce me to this Committee. I also 
sincerely appreciate the letters of support submitted on my behalf by 
retired New Mexico Senators Bingaman and Dominici, both of whom 
previously served on this Committee.
    I am honored to appear before you today as President Obama's 
nominee to be the Commissioner of the Bureau of Reclamation. I am a 
professional engineer who has served as Director of the New Mexico 
Interstate Stream Commission under both Republican and Democratic 
Governors in the State of New Mexico. With over two decades of water 
resources management experience, I have worked directly on many issues 
that affect water management throughout the entire western United 
States, including interstate stream compacts, endangered species, 
drought, Indian water rights, rural water projects, water conservation 
and river management for multiple resource goals.
    By way of telling you a little about myself, I am a native New 
Mexican and have lived most of my life in New Mexico. I grew up working 
on my father's small ranch, irrigating pastures from centuries-old 
acequias, community irrigation systems, that are fed by the Rio Santa 
Barbara, a small tributary of the Rio Grande originating in the Sangre 
de Cristo Mountains, thus beginning a lifetime of work in water 
management. I attended New Mexico Institute of Mining and Technology in 
Socorro, New Mexico and was conferred Bachelor of Science degrees in 
Petroleum Engineering and Chemistry in 1979. Upon graduation, I went to 
work in oil production in Prudhoe Bay, Alaska working for Arco Alaska, 
Inc. I loved Alaska and the work was challenging and exhilarating, but 
I wanted to move back to New Mexico, back to family and to the state 
that I wanted to make a difference in.
    After a few years doing construction work and traveling abroad, I 
went to work as a Utility Engineer for the New Mexico Public Utility 
Commission. Here, I once again began working on water management as I 
reviewed the sufficiency of the water rights portfolios and the 
adequacy of water management policies of the privately owned water 
utilities that the state regulated. After a few years, I had an 
opportunity to help the County of Santa Fe start up a new water utility 
in the fast growing area around the city of Santa Fe. Before long, the 
County created a County Utility Department that I led, then that 
Department was merged with the County's Land Use Department and I got 
to lead the County's Land Use and Utilities Department, managing 
firsthand the interconnectedness of water availability and development 
potential. By this time, I was completely engaged in the complexities 
of managing New Mexico's scarce water resources. When Governor 
Richardson was elected, I was asked to be Director of the New Mexico 
Interstate Stream Commission and Deputy State Engineer in 2003. When 
Governor Martinez was elected, she reappointed me as Director of the 
Interstate Stream Commission in 2011. My time at the Interstate Stream 
Commission has been a fascinating mix of technical, legal, policy, 
financial and political challenges. It has been a perfect training 
ground for someone asked to serve as Commissioner of the Bureau of 
Reclamation.
    I believe that my tenure as Director for the New Mexico Interstate 
Stream Commission has allowed me to learn about and deal with many of 
the issues that the Commissioner of the Bureau of Reclamation is faced 
with, albeit at a regional scale. The New Mexico Interstate Stream 
Commission, created by the New Mexico legislature in 1935, has broad 
powers to investigate, protect, conserve and develop New Mexico's 
waters including both interstate and intrastate stream systems. The 
Commission is responsible for ensuring compliance with New Mexico's 
eight interstate stream compacts, and is also responsible for regional 
and state water planning in New Mexico.
    My service as Director of the New Mexico Interstate Stream 
Commission for the last 11 years has been a tremendously rewarding 
experience. I have had the privilege to represent New Mexico as 
Governor Martinez's Representative to the Colorado River; New Mexico's 
Commissioner to the Upper Colorado River Compact and Canadian River 
Compact Commissions; and New Mexico's Engineer Adviser to the Rio 
Grande Compact Commission. I have also represented New Mexico on water 
issues in both the US/Mexico Border Governors Conference and the New 
Mexico/Chihuahua Commission.
    Given the Interstate Stream Commission's broad statutory 
responsibilities, I have been involved in finding river management 
solutions to difficult endangered species issues on the Rio Grande, as 
well as the San Juan, Pecos and Canadian Rivers. I have served as New 
Mexico's representative on the Glen Canyon Dam Adaptive Management Work 
Group, a federal advisory committee to the Department of Interior on 
managing multiple resource objectives in the reach of the Colorado 
River between Glen Canyon Dam and Lake Mead. These efforts for 
balancing the preservation of endangered species with other resource 
goals, including the protection of water users in the arid southwest, 
has required innovation, collaboration and perseverance.
    Working with my colleagues at the New Mexico Interstate Stream 
Commission and Office of the State Engineer, I have worked to promote 
and implement settlement of Indian water rights claims of six of the 
state's Indian Nations and Pueblos. I also helped draft and testified 
in favor of New Mexico legislation to create a New Mexico Indian Water 
Rights Settlement Fund to set aside state cost share funds needed for 
implementation of those settlements. To date, New Mexico has provided 
about $65 million toward a $130 million cost share obligation. 
Successful resolution of Native American water rights claims is 
critical to the water security of all New Mexicans, not just for our 
Native American communities.
    The Interstate Stream Commission has also been a strong advocate 
for assuring a long-term water supply for New Mexicans in the eastern 
part of the state where ground water supplies in the Ogallala aquifer 
are rapidly dwindling. In that vein, I have supported development of 
the Eastern New Mexico Rural Water Supply Project to deliver renewable 
water from Ute Reservoir on the Canadian River to communities like 
Clovis and Portales New Mexico. Without this water supply project, 
these communities could begin running out of water within 10 years. The 
Interstate Stream Commission has been at the forefront of water 
planning efforts in New Mexico through its management of the state and 
regional water planning programs in the state. During my tenure as 
Director, New Mexico completed the last of 16 regional water plans as 
well as its first formal state water plan and all of these water plans 
are currently being updated.
    I am proud of the work that we have done during my time as Director 
the New Mexico Interstate Stream Commission. All told, we have helped 
assure water security for our people, while improving the operation of 
our river systems for the benefit of the endangered species and other 
resources and the natural ecology generally. Particularly in the last 
several years of record setting drought, we have found innovative ways 
to conserve and stretch the utility of this scarce but vital resource. 
All of these efforts have required establishment of strong 
relationships with diverse stakeholders, including our neighboring 
states, local governments, Indian tribes, agricultural and municipal 
water users, power users, and environmental interests.
    Interestingly, one of our key partners in almost all of the efforts 
I have described is the Bureau of Reclamation and now, if confirmed, I 
would have the opportunity to serve as the Commissioner for the Bureau 
of Reclamation. I am deeply honored and appreciative that President 
Obama and Secretary Jewell have seen fit to nominate me for this 
important position.
    As you know, Michael Connor who used to staff this Committee and 
was recently confirmed as Deputy Secretary of the Department of 
Interior most recently held the position of Commissioner of 
Reclamation. I know Mr. Connor well and realize that he leaves large 
shoes to fill. I am excited by the challenge this presents and believe 
that my professional experience has prepared me for the challenge. I am 
also comforted knowing that Mr. Connor will still be at Interior to 
advise and guide me; and knowing the capabilities of many of the people 
in leadership positions at Reclamation and the Department of Interior. 
I realize that I will be joining a strong and capable team.
    If confirmed, I am committed to working with the public, affected 
stakeholders and Congress to collaborate to find balanced solutions to 
the water resource and hydropower generation challenges facing the 
western United States.
    Thank you for the opportunity to address my nomination. I look 
forward to continuing to work with you and will be happy to respond to 
questions at the appropriate time.

    The Chair. Thank you very much, Mr. Lopez.
    Dr. Regalbuto.

   TESTIMONY OF MONICA C. REGALBUTO, NOMINEE TO BE ASSISTANT 
        SECRETARY OF ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Ms. Regalbuto. Chair Landrieu, Ranking Member Murkowski and 
the members of the committee.
    The Chair. Can you pull the microphone closer to you, 
please?
    Ms. Regalbuto. Yes.
    The Chair. Thank you.
    Mr. Regalbuto. I appreciate the opportunity to appear 
before you as President Obama's nominee for Assistant Secretary 
for Environmental Management at the United States Department of 
Energy.
    I would like to begin my statement by expressing my 
gratitude to the President for his confidence demonstrated by 
this nomination. I am honored and humbled to be here. Should I 
be confirmed I will do my best to meet that confidence.
    I would also like to thank Secretary Moniz for his support 
and for his leadership of the Department of Energy.
    Professional achievement is seldomly an individual effort. 
I have the privilege of working with a multitude of talented 
people throughout my career as a chemical engineer. There are 
countless family members, friends, mentors and colleagues who 
have done so much over the years to make this day possible. I 
want to especially thank and recognize my husband, John, for 
always being supportive and patient. To my adult children, 
Ricky, Carol and Robby, for their sense of humor as they grew 
up in a hybrid culture hearing my daily use of science based 
Spanglish.
    Last, I would not be here without the loving support of my 
parents, Horacio and Conchita, for instilling in me great 
values during my childhood and for my parents-in-law, John and 
Carole, who I consider my second set of parents.
    Madame Chair, I began my studies in Mexico where through a 
great economic sacrifice of my family, I attended private 
schools which offer a better education. In high school I 
discovered an interest and gift in math and science and started 
college seeking a degree in chemical engineering and computer 
science at the Monterrey Tech.
    At the time there were very few women in engineering with 
limited job opportunities. This reality has heavily influenced 
me. As such, I have always supported and led efforts that 
substantially enhance employment and opportunity for women and 
minorities.
    I met my husband, John, while I was a student and 
eventually married him and moved to the United States and 
proudly acquired my U.S. citizenship.
    After completing my Ph.D., at the University of Notre Dame, 
I joined Argonne National Laboratory in 1998. I started my 
career supporting the development of technologies for the 
treatment of high level waste at the Department of Energy 
Plutonium Productionsites. After developing strong technical 
skills I joined BP-AMOCO in 1996 where I enhanced my skills at 
managing complex projects, large budgets and multi-disciplinary 
staff in an industrial setting. I returned to Argonne in 2001 
and became the head of the Process Chemistry and Engineering 
Department where I worked on new technologies for the treatment 
of used nuclear fuel.
    In addition I was a member of the fuel cycle team at the 
Massachusetts Institute of Technology. My participation in the 
study not only allowed me to gain experience working with high 
level officials and non-governmental organizations, but brought 
to my attention the need for the safe, permanent disposal of 
all types of radioactive waste.
    In 2008 I had the unique opportunity to join DOE's Office 
of Environmental Management where I served as the Senior 
Program Manager supporting their strategic mission in waste 
processing area.
    I currently serve as the Deputy Assistant Secretary for 
fuel cycle technologies within the Office of Nuclear Energy. In 
this position I am responsible for directing research and 
development programs involving 10 national laboratories, 32 
universities, over 400 scientists and 300 professors.
    The last few years have been an eventful period with 
respect to nuclear energy. I was directly involved in providing 
and coordinating emergency responses to the Fukushima Dai-ichi 
nuclear power plant disaster focusing on options to mitigate 
the highly contaminated water resulting from the emergency 
cooling of reactors damaged by the earthquake and subsequent 
tsunami.
    Over the past decades I have seen various nuclear waste 
management programs from a variety of vantage points.
    As a scientist at Argonne I have worked on and led efforts 
to identify technical solutions to difficult waste management 
issues.
    In my current role, I have been responsible for formulating 
and articulating strategic options to expedite the resolution 
of our waste management needs. I have also experienced the 
intricacies of nuclear waste management from a perspective of 
being a waste generator and from a waste disposal specialist 
during my time at DOE.
    Madame Chair, the Manhattan Project was a critical 
component of the success of World War II and the cold war. The 
communities and regions that were home to these sites have made 
sacrifices for our Nation and the environmental remediation is 
both a legal and moral obligation.
    2014 marks the 25th anniversary of the EM program. During 
my tenure at Argonne and now at DOE I have watched EM complete 
91 sites and have made successful progress toward the remaining 
16. But great challenges still remain that require innovative 
strategies to cleanup efforts while ensuring the work is 
completely done safely.
    I believe my background, experience and commitment have 
prepared me to lead the Office of Environmental Management 
during this particular critical time and I welcome the 
opportunity to continue my service to the Nation as Assistant 
Secretary for EM.
    If confirmed, I pledge to work closely with this committee 
and others in Congress to assure that we continue the safe 
cleanup of the environmental legacy.
    Madame Chair, thank you for the opportunity to appear 
before you and your committee today. I look forward to 
answering any questions.
    [The prepared statement of Ms. Regalbuto follows:]

  Prepared Statement of Monica C. Regalbuto, Nominee to be Assistant 
 Secretary of Energy for Environmental Management, Department of Energy
    Chair Landrieu, Ranking Member Murkowski, Members of the Committee: 
I appreciate the opportunity to appear before you today as President 
Obama's nominee for Assistant Secretary for Environmental Management at 
the United States Department of Energy.
    I would like to begin my statement by expressing my gratitude to 
the President for the confidence in me that he has demonstrated in his 
nomination. I am honored, and humbled to be here, and should I be 
confirmed, I will do my best to meet that confidence.
    I would also like to thank Secretary Moniz for his support and for 
his leadership of the Department of Energy.
    Professional achievement is seldom an individual effort. I have had 
the privilege of working with a multitude of talented people throughout 
my career as a chemical engineer. There are countless family members, 
friends, mentors and colleagues who have done so much over the years to 
make this day possible.
    I want to especially thank and recognize my husband John for always 
being supportive and patient and to my adult children, Ricky, Carol, 
and Robby for their sense of humor as they grew up in a hybrid culture, 
where they learned my unique daily use of science-based ``Spanglish.'' 
Lastly, I would not be here without the loving support of my parents, 
Horacio and Conchita, for instilling in me great values during my 
childhood and for my parents-in-law, John and Carole, whom I consider 
my second set of parents.
    Madam Chair, I began my studies in Mexico where through the great 
economic sacrifice of my family, I attended private schools which 
offered a better education. In high school, I discovered an intense 
interest and gift in math and science, and started college seeking a 
degree in chemical engineering and computer science at Monterrey Tech 
(ITESM). At the time there were very few women in engineering with 
limited job opportunities. This reality has heavily influenced me, and 
as such I have always supported and led efforts that substantially 
enhanced employment of and opportunities for women and minorities. I 
met my husband John while I was a student and eventually married him 
and moved to the United States and proudly acquired my U.S. 
citizenship.
    After completing my Ph.D. at the University of Notre Dame, I joined 
Argonne National Laboratory in 1988. I started my career supporting the 
development of technologies for the treatment of high-level waste at 
the Department of Energy plutonium production sites. After developing 
strong technical skills, I joined BP-AMOCO in 1996, where I enhanced my 
skills at managing complex projects, large budgets and a multi-
disciplinary staff in an industrial setting. I returned to Argonne in 
2001, and became the Head of the Process Chemistry and Engineering 
Department where I worked on new technologies for the treatment of used 
nuclear fuel.
    In addition, I was invited by the Massachusetts institute of 
Technology to be part of its three-year Fuel Cycle Study Team. The 
study was published in 2010 and considers economics, risk, 
nonproliferation, institutional structures and technology readiness in 
meeting U.S. energy and environmental needs. My participation in the 
study not only allowed to me to gain experience working with high level 
officials and nongovernment organizations, but brought to my attention 
the need for the safe, permanent disposal of all types of radioactive 
wastes.
    In 2008, I had the unique opportunity to join DOE's Office of 
Environmental Management, where I served as a senior program manager 
supporting their strategic mission in the waste processing area.
    I currently serve as the Deputy Assistant Secretary for Fuel Cycle 
Technologies within the Office of Nuclear Energy. In this position I am 
responsible for directing the research and development program 
involving 10 national laboratories, 32 universities, over 400 
scientists and 300 professors.
    The last few years have been an eventful period with respect to 
nuclear energy. I was directly involved in providing and coordinating 
emergency responses to the Fukushima Dai-ichi nuclear power plant 
disaster. I assembled a multi-office team within DOE to evaluate 
potential near-term options to mitigate the highly contaminated water 
in Japan's plant resulting from the emergency cooling of reactors 
damaged by the earthquake and subsequent tsunami
    Over the past few decades, I have studied our various nuclear waste 
management programs from a variety of vantage points. As a scientist at 
Argonne, I have worked on and led efforts to identify technical 
solutions to difficult waste management issues. In my current role, I 
have been responsible for formulating and articulating strategic 
options to expedite the resolution of waste management issues. I have 
also experienced the intricacies of nuclear waste management from the 
perspective of a waste generator and from a waste disposal specialist 
during my time at DOE. One of Nation's biggest challenges remains to 
ensure the public that the government is able to fulfill its 
responsibility regarding the timely handling and cleanup of the nuclear 
waste originated from both its defense and civilian programs.
    Madam Chair, the Manhattan Project was a critical component of our 
success in World War II and the Cold War. The communities and regions 
that were home to these sites have made sacrifices for our Nation, and 
the cleanup mission of the Environmental Management program is both a 
legal and moral obligation.
    2014 marks the 25th anniversary of the EM program. During my time 
at Argonne National Laboratory and now at DOE, I have watched as EM 
completed 91 sites and has made significant progress at the remaining 
16. The Environmental Management program has before it some of the most 
complex, challenging cleanup work, and accomplishing our goals will 
mean applying innovative strategies to one-of-a-kind challenges--all 
while ensuring that work is completed safely.
    I believe my background, experience and commitment have prepared me 
to lead the Office of Environmental Management during this particularly 
critical time and I welcome the opportunity to continue my service to 
the Nation as Assistant Secretary for EM. If confirmed, I pledge to 
work closely with this committee and others in the Congress to ensure 
that we continue the safe cleanup of the environmental legacy.
    Madam Chair, thank you again for the opportunity to appear before 
you and your committee today. I look forward to answering any questions 
you and the committee may have.

    The Chair. Thank you all very much.
    Let me begin with some questions and one is both national 
and somewhat local in nature.
    First to you, Dr. Kimball.
    The Water Resources Research Act of 1964 established the 
State Water Resources Research Institute. These institutes are 
located at land grant universities throughout the United States 
and as you know, are USGS managed. They are partnerships 
between Federal Government and States.
    This July marks the 50th anniversary of the signing of the 
Water Resources Act. These institutes were created to fulfill 
several objectives: research and development of new 
technologies, more efficient methods of resolving local, State 
and water resource problems, training water scientists and 
engineers, etcetera.
    We have one such program in Louisiana. The Louisiana Water 
Resource Research Institute is located at LSU. It sponsored 
several research projects on the health of Lake Pontchartrain 
and other important issues.
    Can you talk for a minute about your understanding of these 
resource centers, their level of funding, the importance or 
efficacy of their work and what are your views about continuing 
these partnerships? Do you think they bring value to the 
mission of your agency?
    Ms. Kimball. Thank you very much, Senator, for that 
question.
    The short answer is I think they're very valuable and I 
think the partnership is becoming stronger every day. We have 
had some challenges within funding in the past. Part of that 
was because we had difficulty clearly linking the activities 
within the institutes to the mission of the USGS.
    However, we've worked very, very closely with the 
leadership of the institutes. We have put together a strategic 
plan that gives us ways to closely link and to very easily 
articulate the connection between the institutes and the USGS.
    I think going forward into the future we will be able to 
demonstrate the value of these partnerships. We'll be able to 
demonstrate the utility of the projects that are being 
conducted at the various water resource research institutes. I 
look forward to a very productive relationship going into the 
future.
    The Chair. How many such institutes do we have? Do you know 
or can the staff let us know?
    Ms. Kimball. Um, it's in the neighborhood of 30, but that 
is not a number that I know exactly.
    We will be happy to provide the response for the record.
    The Chair. OK.
    Along that line, in Lafayette at the National Wetlands 
Research Center that was established by my predecessor, Senator 
Johnson and Senator Brough, when they served here. That 
wetlands research center has become an extraordinary, regional, 
outside of Louisiana, regional resource for scientists all over 
the Gulf Coast, in studying and recognizing the potential 
threat to the wetlands, particularly along the Gulf Coast. But 
I think they do work all over the Nation.
    Are you familiar with the work they do there? Do you have 
any ideas in your mind how you can step up the collaboration in 
addition to what you just mentioned with some of these 
facilities around the country?
    Ms. Kimball. I'm very familiar with the work at the 
National Wetlands Research Center. For that matter, I started 
my professional career working on issues in the coastal area, 
North Central Gulf coastal areas, of Louisiana and Mississippi. 
That center has a long history of providing valuable 
information, not just on the North Central Gulf areas, but 
issues associated with deltas and wetlands worldwide.
    I think that we will see in the future as we look to the 
restoration activities in the Gulf following the Deep Water 
Horizon Institute, a significant contribution by that center 
and not only by that center, but by the suite of partners both 
in academia and in other non-profit groups and other Federal 
research facilities across the country.
    The Chair. OK.
    One more question to you and then I'll ask the other 
panelists.
    As somewhat of a surprise to the members of the delegation 
from the Gulf Coast States the Justice Department last year 
allocated $2.5 billion in penalties and fees to the Gulf Coast 
States. Put it in a semi-private organization which had been 
established under the Bush Administration called the National 
Fish and Wildlife Foundation.
    According to the Justice Department directives $1.2 billion 
for barrier islands and river diversion projects will be sent 
off the coast of Louisiana, $356 million each for Alabama, 
Florida and Mississippi and $203 million for Texas. This is not 
actually money under your jurisdiction, but your mission is 
very similar.
    So, A, are you aware of this funding that's available with 
the National Federation of Wildlife?
    Are you understanding that there could be some 
complementary work done, particularly because it seems under 
the Justice Department directive that this is restricted to 
barrier island restoration and river diversion which is what 
your thesis was on?
    Ms. Kimball. Yes, Senator, we are aware of this funding 
stream. We are aware of the parameters under which the National 
Fish and Wildlife Foundation is operating.
    The USGS, along with other bureaus within the Department of 
the Interior, are working closely together in the Gulf area and 
working closely with the States to identify the appropriate 
projects that could be funded under this activity.
    The Chair. OK.
    I'm going to be following up specifically on these barrier 
islands since this fund is restricted, not at our request, but 
it was done by the Justice Department in settlement with the 
court. Not that we don't have great needs for barrier islands, 
but there are other needs, as you are well aware. But we've got 
to make sure that, you know, this is a lot of money and that 
it's spend wisely and it's spent in a coordinated fashion with 
the other agencies that are, you know, tasked with these 
barrier island challenges which are all over the country, of 
course, not just in the Gulf of Mexico.
    Let me ask Dr. Regalbuto real quick.
    What immediate challenges do you see in the EM program that 
are right before you? I know this is many sites throughout the 
country. I've got a map here of the sites that we're still 
working on. They're in California, Nevada, South Carolina, 
Kentucky, Tennessee, Idaho, New York. I mean they really range 
from West to East facilities.
    What do you think some of the immediate challenges are? If 
you could list them No. 1, 2 and 3.
    Ms. Regalbuto. Thank you for your question, Senator.
    I am aware of the number of sites at the Department of 
Energy Environmental Management program. The program is 25 
years old. It has been focusing more in the first 25 years on 
the low hanging fruit.
    The next number of years really the sites that remain to be 
treated are the most, more challenging of all.
    In addition to the existing inventory of radioactive waste 
that is currently in assistance and was part of the 
prioritization process through EM, we have a number of 
incidents this year that makes it switch in priorities.
    The incident at WIPP is No. 1 priority. We had to restart 
the facility. This facility is incredibly necessary for the 
Department of Energy and for the Nation as it is the only 
working repository in the world and is the only place where we 
can bring our waste. So it has an impact across the whole 
country.
    So that has to be No. 1 priority.
    No. 2 priority is the work at Hanford. Hanford is one of 
the largest sites. As such, a lot of work still needs to be 
done. We are working with the State currently to assess a stage 
approach that will allow us to move forward.
    The number 3 priority is to continue the great work that we 
have been doing in the State of South Carolina at the Savannah 
River National Plant. Savannah River is the only working site 
that produces glass today in this country. That is critically 
important that we continue to work on those issues.
    The Chair. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madame Chair.
    Dr. Kimball, I have a question for you about priorities 
within USGS. I noted in my opening comments my concern about 
the natural disaster monitorings, specifically volcanos, and 
earthquakes. If you look at the President's budget, we do see a 
slight increase in funding for natural hazards, but it does not 
sufficiently fund the Alaska Volcano Observatory System of 
Seismic Monitors.
    It's my understanding that within a year or 2, without 
maintenance funds for system repair and transportation to the 
remote facilities, that we could see about half of this network 
offline, which of course, would be a concern.
    Another area where--I am just trying to get a sense of 
priorities within the agency.
    In 2007 I was successful in advancing a bill called the 
Alaska Water Resources Act which called for USGS to increase 
the number of streams in the State that have river and stream 
gauges on them. We only have 100 USGS stream gauging stations, 
one per ten thousand square miles. In the Pacific Northwest the 
States average one gauge for each 365 square miles. I think you 
understand very well the significance and the importance of 
these stream monitoring gauges.
    Alaska just did not see the funds that were prioritized to 
implement this 2007 act. Instead the act expired last year 
without even one new stream gauging station that was added. 
Again, an area, just in terms of understanding what our 
resource is, which is critically important whether it's for the 
health and safety or whether it's for understanding our ability 
to develop in areas.
    So the question to you and I know it's broad, but how will 
you fight for those priorities for funding that are really very 
much within USGS' core mission? How do you determine where you 
place that priority when it comes to natural hazards monitoring 
and science and other base science spending?
    Ms. Kimball. Thank you for the question, Senator Murkowski.
    I know that you've been quite a supporter of USGS 
activities in the realm of natural hazards and basic monitoring 
and data collection. I share your concerns about funding. I 
share your sense of priorities for these basic data collection 
efforts that are essential for us to have in order to 
understand the system, how the system operates. Hence, provide 
the information that will result in enhancing public health, 
safety and welfare.
    The USGS, over the past few years, has approached the 
budget process in these times of very constrained fiscal 
constraints by in each year identifying 1 or 2 of those 
fundamental activities that we would promote and push because 
there simply were not enough dollars in constrained fiscal 
times to be able to raise that bar for everyone and every 
program. So we've been approaching it in a step wise process.
    This year in 2014 we were able to gain some additional 
funds to support the stream gauging network, specifically. To 
support our natural hazards work.
    We were fortunate during the Stimulus bill to be able to 
have enough resources to develop some of the monitoring 
capabilities for volcanoes and earthquakes, but again, not 
enough to fully implement our strategic plan for the system.
    If confirmed I can commit to you that we'll be working with 
you and with our partners across the country to identify those 
funding sources to stabilize our basic data collection 
activities and to enhance those activities so they can meet a 
standard for protecting public health and safety.
    Senator Murkowski. I appreciate your response. I look 
forward to working with you on those very basic areas which, I 
think, far too often get pushed to the back when there is 
something brighter and shinier that occupies this space. thus, 
my concern about this mission creep. So I ask you to be 
sensitive to that.
    I mentioned in my opening wanting to inquire a little bit 
about the Black Brant. I am trying to figure out where these 
birds go after they leave the Izembek Refuge. It's my 
understanding they go down to Baha. They are in an area near 
San Quintin Bay, Mexico. They must be pretty smart birds to 
summer in Alaska and winter in Mexico.
    But, of course, the concern I have is there are 
disturbances in Baha whether it is people, hunters, aircraft, 
roads, or avian predators. I am trying to understand where they 
are on the other end because I can not see that a ten mile, one 
lane, gravel, non-commercial use road is going to so horribly 
disturb these animals, that these birds can not make the 
journey south. So I want to get a little more background and 
data from you. We can do that offline.
    Thank you, Madame Chair.
    The Chair. Thank you, Senator.
    Senator Johnson.
    Senator Johnson. Thank you, Madame Chair and Ranking Member 
Murkowski.
    Congratulations to each of the nominees.
    Mr. Lopez, this committee has discussed rural water 
projects like Lewis and Clark regional water system and the Mni 
Wiconi water system on numerous occasions. Unfortunately the 
regular budgeting process seems to be continuously 
underinvested in these and other rural water projects.
    For example, the Administration's FY2015 budget provides 
just $22 million for construction across all 6 projects with 
only $2.4 million designated for Lewis and Clark in South 
Dakota. There are significant benefits and substantial returns 
in investment from rural water projects. This slow pace on 
uncertainty of construction funding has a number of negative 
consequences and leads to significant inefficiencies.
    In your new position how will you prioritize rural water 
projects within Reclamation's budget so that they can make 
meaningful progress each year toward connecting communities in 
their service area?
    Mr. Lopez. Thank you for your question, Senator Johnson. 
Also I wanted to thank you for the opportunity to meet with you 
in your office a few days ago where this issue came up.
    I recognize and I understand, kind of, the frustration with 
the pace of these important rural water projects. As I 
mentioned in my opening statement I've been involved in 
supporting the Eastern New Mexico Rural Water Project and that 
project, like Lewis and Clark and Mni Wiconi are both--it is 
absolutely critical for the communities that are going to 
depend on it.
    Unfortunately the--we worked with a constrained budget and 
we--I understand that Reclamation has some criteria by which to 
allocate the available funds such that it meets the greatest 
needs and completes useable portions of projects in the time 
that are allotted.
    If confirmed, I would look forward to learning more about 
your specific projects and more specifically, to work with you 
and this committee and to try and find additional funding 
resources to finish all these very worthy projects in a useful 
timeframe.
    Senator Johnson. Dr. Kimball, do you agree that maintaining 
Landsat data continuity should be a priority for your agency 
and are you able to share any updates about the status of the 
discussions between USGS and NASA concerning the future of the 
Landsat program and the anticipated timing of the next Landsat 
launch?
    Ms. Kimball. Yes, I do share the sense of priority for 
Landsat. We have 42 years of unbroken record of information 
that is vitally important to agriculture, vitally important to 
forestry, vitally important to looking at issues associated 
with drought and climate change. Maintaining that data 
continuity is very important.
    The architecture study team, a joint effort of USGS and 
NASA, is in the process of finalizing the report that was 
requested by Congress. We anticipate seeing that report 
sometime around the end of May. We'll be happy to provide more 
information when that report is available.
    Senator Johnson. I yield.
    The Chair. Thank you so much.
    Senator Risch.
    Senator Risch. Thank you, Madame Chairman.
    Dr. Regalbuto, thanks so much for taking the time to meet 
with me.
    Your work is incredibly important to the State of Idaho, 
particularly at the Idaho National Laboratory. I have to tell 
you after looking at your qualifications, we don't see very 
often people who are nominated for these positions that have 
the kind of qualifications you do that fit into that spot so 
perfectly as yours do. So we look forward to working with you 
in the future.
    You're familiar, of course, with the Idaho National 
Laboratory and the 2 missions that are going on there?
    One, of course, is as a laboratory doing some incredibly 
good and important research for the country.
    But also, as you mentioned, we've got a cold war legacy 
that we're cleaning up. We were the unhappy and unwilling 
recipients of a lot of the waste that took place in other 
places. It really wasn't handled very well, as you know. It was 
buried in the backyard, if you would.
    The history, as you know, is that the State attempted to 
negotiate with the Department about the cleanup. It didn't work 
very well. We wound up in court. That didn't work very well 
either.
    But what did work is while we were in court the 2 parties 
sat down, negotiated a settlement agreement and that has worked 
very well. Four of us have been Governors since the initiation 
of that particular agreement. Regularly we have hiccups, 
defugalties, issues and we resolve them within the 4 corners of 
the agreement. It's been working incredibly well.
    So in given that, I want to talk about the future. We've 
had the distant past which hasn't been very good, the recent 
past which has been very good. Now as the Department moves into 
the next phase of the cleanup work in Idaho, I want to urge you 
to work with us, with the Congressional delegation, who really, 
kind of, work as an allies in between the State and the Federal 
Government and also with the State officials, who are anxious 
to work in good faith to try to move forward and complete the 
work that's going to take a long time out there.
    So I'd like to get your thoughts and your comments in that 
regard, please.
    Mr. Regalbuto. Thank you, Senator Risch, for your kind 
words and also for the opportunity to visit with you and learn 
more about the programs in your State and the communities 
surrounding it.
    I am a product of a national laboratory system and as such 
I have experience understanding the valuable work, the research 
and development, that is conducted at the national 
laboratories. I also understand that Secretary Moniz is a great 
supporter of the work that comes from the national laboratory 
not only for the Office of Environmental Management, for the 
whole DOE. We look forward to continue that high level of work.
    Regarding the cold war waste I do understand that Idaho is 
one of the most successful sites that we have in terms of 
meeting their goals and putting to resolution the cold war 
waste. I certainly am aware of the settlement agreement. I 
thank you and your colleagues for your willingness to work with 
the Department throughout these many years.
    If confirmed, I look forward to continuing that valuable 
relationship with, not only the laboratory, the site and the 
State, but also with the communities in your purview.
    Senator Risch. Thank you, Doctor.
    I appreciate those kind words about the laboratory.
    You're right, we have been very successful. The contractors 
that are working at the site have done an excellent job. It's a 
great success story.
    I think it is the result of the collaborative work between 
the State of Idaho and the Department of Energy that has 
resulted in these successes. I hope we can all agree that we're 
going to use that as a model as we move forward. It works so 
much better if we work hand in hand and we collaborate to get 
these things done. I think that's what's been--that's why we 
have the result we have in Idaho.
    It helps the other mission of the laboratory. We can focus 
on the other missions of the laboratory. This is a great place. 
They do fantastic work there. But we have both missions that we 
have to pay attention to.
    So, thank you so much for agreeing to do this. I look 
forward to the partnership as we move forward together.
    Mr. Lopez and Dr. Kimball, thank you 2 also for meeting 
with me. Appreciate the matters that you bring to the table 
also.
    Mr. Lopez, I appreciate seeing in your resume the 
collaborative systems that you've used in the past. I explained 
to you a unique situation we had at Deer Flat Wildlife Refuge 
which is now really a recreation area near a large population 
center in Idaho. We've moved forward in some of the challenges 
as far as management that's concerned. We'll be talking about 
that in the future as we go forward.
    Thank you for agreeing to serve.
    My time is up.
    Thank you very much, Madame Chairman.
    The Chair. Thank you, Senator.
    Senator Manchin.
    Senator Manchin. Thank you, Madame Chairman.
    I'm going to start with Dr. Kimball, if I may.
    Let me see here.
    Dr. Kimball, you know that USGS is currently engaging 
critical mineral research. We often hear about our growing 
demand for rare earth elements and their use in the modern, 
civilian and defense technologies. Can you update us on the 
status and progress of the USGS' research in this area?
    Yes. USGS is--has, in fact, received a budget increase to 
look at rare earth minerals. We have a strategic plan in place 
that we're following.
    One of the new aspects of our work, looking at these 
minerals and developing these assessments, is to approach it 
from a life cycle perspective for use, reuse, recycling.
    We are committed to continue with our work on global 
assessments. We are committed to providing the kind of 
information that's needed knowing that this is a global 
resource issue and connecting with our colleagues about that.
    Senator Manchin. When you're doing your research on that 
would you be able to provide me or maybe so I can provide the 
committee with the ownerships, countries that are most 
aggressive in the ownerships and the percent of ownership of 
the rare earth resources in the world?
    Ms. Kimball. Yes, sir.
    We have commodity summaries for approximately 100 
commodities including rare earth materials. We can provide some 
additional information for the record.
    Senator Manchin. I think it might be interesting for the 
committee to have that report.21Senator Manchin. If I may go to 
Mr. Lopez?
    You know the Bureau of Reclamation is one of the largest 
producer of hydropower in the United States. If confirmed, what 
would your priorities for this program be for hydropower?
    Mr. Lopez. Thank you for your question, Senator.
    Yes, Reclamation is, I believe, the second largest 
hydropower producer in the United States. One of the things 
that I've learned in preparing for this job is that there 
remains a great deal of opportunity for additional power, 
hydropower production, within existing reservoirs or dams. I 
think we have to do everything that we can to try and maximize 
the availability of hydropower.
    Similarly there's availability or an opportunity to look 
into developing a low head power production even in canals. 
Anything that moves water has a potential for generating 
hydropower. I look forward to trying to maximize all options.
    Senator Manchin. Let me just say this.
    What I would ask you to do, again on behalf of our 
committee, Energy Committee, is to tell me what the deferred 
maintenance is on the existing plants because everyone can 
build a new plant. But I'm understanding if this is falling 
apart the same as our infrastructure is around the country, 
then we have a deferred maintenance that we haven't maintained. 
So we could have our current hydropower production depleted 
because of a lack of maintenance.
    If you could or your office would be able to do that as 
quickly as possible, give us an update on the condition of the 
hydropower infrastructure that we currently have in place, it 
would be greatly appreciated and most helpful as we move 
forward because I'm concerned about our ability to continue 
with a lack of maintenance.
    Mr. Lopez. Thank you, Senator.
    I will, if confirmed, I will work on producing that report 
for this committee.
    Senator Manchin. I appreciate that.
    Senator Manchin. Dr. Regalbuto.
    While the Office of Environment Management does not oversee 
any sites in my State, budget overruns from the office do 
affect the DOE's programs in West Virginia. How do you plan to 
prevent cost overruns in this multibillion dollar budget?
    Ms. Regalbuto. Thank you for your question, Senator.
    I recognize that the cost overruns in the Department of 
Energy have been significant and not only in the Department of 
Energy Environmental Management Program but in other programs. 
That does affect the overall well being of the taxpayer's 
money.
    Secretary Moniz is committed to addressing this issue. It 
is one of the No. 1 priorities in the department. He has 
created the Under Secretary for Management and Performance 
where EM is currently located.
    With that we plan to move forward into much more well 
thought out programs, not any shape construction of anything 
until we're ready in order to make sure that the taxpayer money 
is put to well use.
    If confirmed, I'll be happy to work with you and any other 
member of the committee----
    Senator Manchin. One final thing I will just--my time is 
running out. Real quickly, if I could ask you?
    The Department of Energy has about $8 billion, as I 
understand, in clean coal technology?
    Ms. Regalbuto. Yes.
    Senator Manchin. That has not been distributed for since 
2009?
    Ms. Regalbuto. I am not--thank you for your question, 
Senator.
    Senator Manchin. No, the only thing I'm saying on that can 
you tell me why there has not been any movement on this? Why 
the private sector hasn't stepped to the plate? Your evaluation 
of why this money is not going in for the technology that would 
allow us to burn the most abundant, affordable energy that we 
have in a much cleaner fashion?
    I really want to hear that from you, if I can.
    Ms. Regalbuto. Thank you for your question, Sir.
    The development of clean technologies, unfortunately is not 
in my purview and is one area that I have personally not worked 
on.
    I am well aware that the possibility of new technologies 
exist but I will have to get back to you on the record on this 
specific question.
    Senator Manchin. Thank you.
    The Chair. Thank you.
    Senator Scott.
    Senator Scott. Thank you, Madame Chairwoman.
    Dr. Regalbuto, thank you for being here today and thank you 
for your testimony and also I hear your husband is a professor 
on faculty at the University of South Carolina. So go 
gamecocks. Good to have you----
    [Indistinguishable sound from audience.]
    Senator Scott. Thank you. I'll tell them you said so.
    [Laughter.]
    Senator Scott. My question really is about the latest 
report. Two weeks ago the DOE released its study on 
alternatives to the MOX facility at Savannah River site. As you 
know the Obama Administration has decided to put the facility 
on cold stand by in FY2015.
    I'm trying to think of the alternatives. Obviously we've 
seen the 4 alternatives or the 5 alternatives to the MOX 
facility. One being the WIPP facility in New Mexico which is 
currently recovering from a radiation leak and it's going to be 
closed for some period of time.
    Do you have an idea of how long the facility is going to be 
closed?
    Ms. Regalbuto. Thank you for your question, Senator.
    Yes, go gamecocks.
    [Laughter.]
    Ms. Regalbuto. I've been to many games and it's fun.
    Regarding the study on the MOX option studies, I am aware 
that it was a preliminary study and that no decisions have been 
made. With that, I recognize that one of the options that they 
looked at was disposal at a WIPP like type facility.
    Senator Scott. Yes.
    Ms. Regalbuto. So it was used as a baseline because that's 
where the information is known.
    I do not believe that the intention is to, you know, make 
that decision at this point. If anything, there will be further 
studies before they address anything going forward because the 
true cost has not really been determined in, you know, options 
studies.
    Senator Scott. Yes, ma'am.
    Ms. Regalbuto. Regarding when is WIPP going to be open?
    Right now WIPP is going through investigation. Right now 
they are obtaining the characterization data. Once the 
characterization data and the real reason for the release is 
known, then an action plan is to be put together and a 
remediation path goes forward.
    I don't think we can specifically say how long it's going 
to take because we really don't know exactly what happened. 
There is clear understanding right now about some material 
incompatibility in some of the boxes. But we need to determine 
what was the exact source of that incompatibility before we can 
move forward. Of course, we have to do it efficiently, but also 
in a safe manner.
    Senator Scott. Do you know if the Obama Administration took 
into consideration the radiation leak when they proposed it as 
one of the alternative sites for the MOX program?
    Ms. Regalbuto. Oh, I will not know the answer to that 
question but, you know, from the Obama Administration point of 
view all I can tell you is that some of the options were 
probably analyzed, you know, before the release happened.
    I'm not sure.
    Senator Scott. OK.
    Ms. Regalbuto. About exactly the time table.
    But if confirmed I look forward to working with you on this 
issue.
    Senator Scott. Given the unique work being done at the 
Savannah River site. If you think about the fact that it's the 
Nation's only tritium recycling mission, the Nation's only 
chemical separation facility, the Nation's only site where high 
level waste is treated and the tanks are actually closed. How 
do you plan to use this strategic national treasure to help the 
country and how will the future budgets reflect the real work 
going on at the Savannah River site?
    Ms. Regalbuto. Thank you, Senator, for your question.
    The Savannah River site has certainly been one of the best 
sites with a very complex mission. I am certainly impressed 
with the work that has been conducted in H canyon. We went from 
producing plutonium in that facility to now supporting national 
security mission and disposing of weapons grade materials.
    So to me that is one of the stories that we need to 
implement in other parts of the complex where we take the 
facilities and we actually do with them an applicable mission 
that is currently important to the Nation.
    It is certainly a complex issue. Tritium production is very 
important. I am familiar with the, you know, the T bar recovery 
facility is one of the most modern facilities that we have in 
the complex.
    You know, although I have not visited yet, I have seen many 
of the presentations. It's a very impressive facility. You 
know, I commend you for operating that.
    Senator Scott. We certainly see it as a national treasure, 
a national asset. I would look forward to, during one of the 
Gamecock football games, your presence in South Carolina 
perhaps taking some time to join me at the facility and let us 
tour it together.
    Ms. Regalbuto. I thank you very much for your time and if 
confirmed, I look forward to, you know, spending time working 
with you and your organization.
    Senator Scott. Thank you, ma'am.
    The Chair. Thank you so much.
    Senator, thank you for your leadership on that matter.
    Senator Cantwell.
    There's a vote that's been called, but I think we can 
finish Senator Cantwell's questions. Senator Murkowski and I 
have one each and we'll wrap up our hearing in time for our 
vote.
    Senator Cantwell. Thank you.
    The Chair. Senator Cantwell.
    Senator Cantwell. Thank you, Madame Chairman. Thank you for 
holding this hearing. I have questions for each of you and so 
if I can get some, maybe, some succinct answers that would be 
great.
    But I'm going to start with you, Dr. Kimball.
    My colleague, Senator Murkowski, brought up obviously an 
important aspect of what USGS does. But I wanted to ask you, 
specifically, about landslides and a recommendation by the 
National Academy that the USGS published a landslide hazard 
mitigation strategy. So that was something that was recommended 
but it never received funding.
    So do you think we need to do that plan?
    Ms. Kimball. Senator Cantwell, thank you.
    I know that our USGS employees feel very strongly about the 
landslide work. I think that we do need to continue. We do have 
a strategic plan for natural hazards within USGS. I think 
looking at that national plan is going to be important.
    We have additional funds that we are planning to use for a 
national assessment of landslide prone areas. Ultimately to 
look at the kinds of precipitation events that would trigger 
landslides and debris flows.
    Senator Cantwell. I think you can realize where I'm coming 
from after the Oso Darrington mudslide.
    Ms. Kimball. Right.
    Senator Cantwell. That not enough is being done. So, the 
fact that we did have this recommendation, so you're committed 
to doing a plan and you understand that we now have an 
increased risk, whatever you want to call it. But obviously the 
changing climate is causing, you know, rainfall records that 
people never anticipated.
    So it's putting these risks in a higher area. So this 
LIDAR, laser imaging detection and ranging is really, you know, 
essential.
    Ms. Kimball. Yes, Senator. I recognize that. We are 
committed to going forward with comprehensive LIDAR surveys. If 
confirmed, I will definitely be working with you and other 
members of the committee to realize this.
    Senator Cantwell. Thank you. Thank you very much.
    Mr. Lopez, we had a chance to talk about the Yakima Basin 
project in my office. You obviously get the significance of how 
everybody in the region is working together, Native Americans, 
environmentalists, farmers, county commissioners. It's almost 
as if they're giddy with pride at how well they're working 
together which is juxtapose to a lot of other water situations 
around the country.
    Yet, the President's budget doesn't fully reflect what 
they're requesting for the Federal assistance. The State has 
already put up $137 million. So will you work to make sure that 
we get the Federal participation that's needed on this project?
    Mr. Lopez. Thank you for your question, Senator Cantwell.
    I also want to thank you for the opportunity to visit with 
you a few days ago and the discussion that we had regarding the 
Yakima Basin integrated plan really was demonstrative of the 
sorts of things that you can do when you get everybody together 
in collaborative processes and bring everybody along, make sure 
that there's a common understanding of the goals. Quite often 
it yields a win/win type situations. I commend you and all of 
the participants in this project that it's an outstanding 
example of the value of those sorts of processes.
    I recognize that funding on the Federal side has been 
insufficient. I do commit that we would--I would work with you, 
if confirmed, to try and assure that the Federal Government can 
contribute its fair share.
    Senator Cantwell. Great. Thank you very much for that.
    Dr. Regalbuto, is that the right pronunciation?
    Thank you for your willingness to serve. We've certainly 
worked with many of your predecessors.
    This issue of chemical vapor exposure to Hanford workers is 
unacceptable. In the last 2 months 28 people have become sick 
or exposed to these vapors. Workers have asked for better 
access to personal protective equipment.
    What will you do as Secretary to increase the worker's 
safety at tank farms? What will you do to make sure workers who 
suffer radioactive exposure have their medical claims 
addressed?
    Mr. Regalbuto. Thank you for your question, Senator 
Cantwell.
    I share your concerns regarding the vapor exposure to 28 
workers. No workers should be exposed. I understand that the 
Savannah River National Laboratory is right now conducting an 
independent study to assess what is the source of those 
exposures.
    I, myself, am a RAD worker, so I can suit up and put in a 
respirator and work. I certainly recognize that it is a complex 
job once you're all fully suited. The workers do deserve the 
best protection equipment that is available and access to their 
records because their records are theirs.
    If confirmed, I do not know the very specifics right now of 
the situation. But if confirmed I look forward to fully address 
this issue and work with you and your staff regarding this 
issue.
    The Chair. Thank you.
    Senator Cantwell, since the time is so short. We just have 
a few minutes left of the vote. I want to recognize Senator 
Flake for his questions.
    Senator Flake. I appreciate that. I'll be very brief.
    Just for Mr. Lopez, thank you for coming to my office the 
other day. I enjoyed meeting with you there.
    In the next couple of years Colorado River levels are 
projected to drop at Lake Mead to elevations that could result 
in the shortage declaration as early as 2016 or 2017. They're 
going to be significant imbalances throughout the Colorado 
River Basin. What do you believe Reclamation ought to do to 
address these shortages?
    Mr. Lopez. Thank you for your question, Senator Flake. 
Thank you for the opportunity to meet with you a few days ago.
    I'm intimately familiar with a lot of the work that's being 
done on the Colorado River and the Colorado River Basin. I'm 
New Mexico's representative to the Colorado River Compact and 
the--I've served as Commissioner to the Upper Colorado River 
Compact.
    In that context, I worked with Reclamation and the other 
Basin States on the Basin study that was completed in 2012. 
Since then, as you've noted, the--we've recognized the high 
potential that water levels continue to drop and could reach 
critical thresholds very soon.
    To that end Reclamation has taken a leadership role in 
terms of looking at some contingency planning. Obviously we 
don't want to operate in crisis mode, but it's prudent for us 
and for all water managers to look critically at what can be 
done to avoid those critical levels.
    All 7 Basin States are working with Reclamation to look at 
what might be done in the short run. Things like, conservation 
measures, extraordinary conservation measures, both by 
municipalities and agricultural water users. There's work being 
done to see whether agricultural leasing programs might be done 
to make some of the ag water available in times of critical 
shortage.
    In the upper basin we're looking at how all of the Colorado 
River Basin reservoirs might be re-operated to make water 
available for those critical needs. Based on some of that very 
preliminary work we believe that there is the possibility of 
forestalling the sorts of shortages. We will continue to work 
on that.
    If confirmed, I would continue to that effort with 
Reclamation taking the lead role, doing the hydrology modeling 
and engaging all of the stakeholders, most notably the States, 
but also all of the other stakeholders including the tribes and 
environmental interests in that basin.
    Senator Flake. So you'd agree to divert California's water 
to Arizona then? Is that what I hear you?
    [Laughter.]
    Senator Flake. It was worth a try, anyway.
    [Laughter.]
    Senator Flake. No, thank you for your question. I look 
forward to working--or for your answer. I look forward to 
working with you on this.
    Thanks.
    Mr. Lopez. Thank you, Senator.
    The Chair. Thank you very much.
    Final comment, Senator Murkowski.
    Senator Murkowski. Just very briefly and it was along the 
same lines as what Senator Flake asked.
    When we have drought situations, as we clearly have in the 
West right now, I am concerned that oftentimes when our water 
resources are short there is an imbalance in terms of how our 
agencies meet the environmental obligations they have. When it 
comes to choosing between people and fish, the deference 
appears to be going with the fish even when, I think, they have 
some additional flexibility to supply water as they work to 
protect the fish.
    These are incredibly important issues. It's going to be 
very important moving forward to figure out how you navigate 
these tensions between ensuring the water delivery that 
absolutely has to happen while accommodating the environmental 
requirements.
    I do not expect you to give me that answer right here in 5 
seconds. But it is attention that I think we need to reckon 
with as a committee because clearly those in the West are 
dealing with it. I would appreciate your attention to this very 
critical matter.
    Thank you all for being here this morning.
    The Chair. Thank you all for your testimony.
    I'm going to leave with 2 points.
    One is to follow up on the Bureau of Reclamation that over 
a billion dollars flows into the fund, but last year or this 
year budgeted only $123 million will flow out. So 1.043 will 
flow into the fund, only 1.--I mean, $123 million will flow out 
of the fund.
    There are an enormous backlog of projects that need to be 
completed, mostly for the Western States, but their issues are 
very important to this Chairman as well as our issues along the 
coast.
    Second, so Mr. Lopez I'm going to ask you to submit the 
list of your Reclamation projects. They may be in the budget 
and if they are you can just notify us. How many projects are 
pending? What is your shortage of funding? What are your total 
needs, not just what is in the budget?
    The Chair. Then second, Senator Murkowski and I talked 
about the importance of hydropower staying as a part of our 
electricity mix. We're going to talk about that at a future 
meeting. It's either anywhere from 7 to 19 percent. Balancing 
the needs of the other, you know, species, of course, fish, 
etcetera, is very important. Salmon comes up often in the 
reconstruction of these dams.
    But producing more clean electricity is also very important 
for this country. So we look forward to working with you all in 
ways that that can be accomplished.
    With that, if there's any further testimony it can be 
submitted for the record.
    The Chair. Thank you all for your testimony. We'll follow 
up and review and let you know when the markup will occur.
    Thank you.
    [Whereupon, at 11:28 a.m. the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of Suzette M. Kimball to Questions From Senator Manchin
    Question 1. Dr. Kimball, as you know, the USGS is currently engaged 
in critical mineral research. We often hear about our growing demand 
for rare earth elements and their use in modem civilian and defense 
technologies. Can you update us on the status and progress of the 
USGS's research in this area?
    Answer. As I noted during my confirmation hearing, in FY14 the USGS 
received a budget increase to look at rare earth minerals. We have a 
strategic plan in place that we are following. One ofthe new aspects of 
our work looking at these minerals and developing these assessments is 
to approach it from a life cycle perspective for use, reuse, and 
recycling. The USGS has more than a dozen specific projects focused on 
rare earth elements, including research on the largest deposits in the 
United States as well as new techniques that can be used to better 
understand these deposits. In addition, there is an important national 
need for accurate information about critical mineral resources. Such 
information currently is supplied by the National Mineral Information 
Center within the Mineral Resources Program of the USGS. We continue to 
publish annual commodity reports on rare earth elements and critical 
minerals. This information function remains the gold standard for 
mineral resource information, both on a national and international 
level.
    Question 2. I understand that the mission of the USGS Water 
Resources Program includes directives to: ``to protect and enhance 
water resources for human health, aquatic health, and environmental 
quality.'' Additionally, USGS maintains real-time data on state water 
quality. How do you envision the role of USGS in protecting and 
enhancing water quality? Are there ways in which the USGS can work with 
West Virginia state officials to protect and improve the water quality?
    Answer. As the primary federal science agency for water 
information, the USGS is well positioned to work with West Virginia 
local officials to protect and improve water quality through the 
Cooperative Water Program and other activities. The USGS monitors and 
assesses the amount and characteristics of the Nation's freshwater 
resources and the sources and behavior of contaminants in the water 
environment. The USGS also develops tools to improve management and 
understanding of water resources. Fundamental to USGS water science is 
the collection and public dissemination of data describing the quantity 
and quality of the Nation's freshwater resources. These data in turn 
are utilized to inform the public and decisionmakers about the status 
of freshwater resources and provide a sound foundation for local water 
management decisions.
    The USGS Water Resources Mission Area invests in monitoring and 
assessing the quality of the Nation's water, including the effects of 
the investments the Nation is making in water quality improvements. 
Specifically, the USGS provides the scientific foundation for 
protecting, managing, and sustaining surface water that is safe and 
available for drinking and other uses. Water quality information is 
collected at many of the 8,000 streamgage sites, which is used by local 
communities to protect and enhance water quality. In addition, USGS' 
National Water Quality Assessment program provides important 
information on the status of the Nation's water quality, as well as 
trends in conditions.
    One example of USGS-state cooperation in West Virginia involved the 
industrial chemical spill near Charleston on January 9, 2014. The USGS 
worked closely with the state's Department of Environmental Protection 
to collect and analyze water and fish tissue samples and rapidly 
developed highly sensitive methods for quantifying contaminants.
    Question 3. USGS National Landslide Hazard Mitigation Program--In 
2004, the National Academy of Sciences published a report that found 
that the U.S. lacked a comprehensive strategy for landslides. Based on 
the report, the USGS published the ``Landslide Hazard Mitigation 
Strategy''--which included the proposed creation of a national 
landslide program. However the program was never created due to lack of 
funding support.
    It has been 10 years since the USGS released a plan to start a 
Landslide Hazard Mitigation Program. In your view, is there still a 
need for a National program, today? What aspects of the proposed 
program are most critical? What would this program mean for communities 
who are working to manage landslide risks? What could more resources 
mean for the ability to predict a landslide like Oso?
    Answer. The need for a comprehensive National Landslide Hazard 
Mitigation Program has not diminished since the publication of the NAS 
report. As population in potentially hazardous locations grows, the 
overall exposure increases. Changing land-use patterns and increasing 
wildfire frequency also contribute to a general increase in the 
exposure to landslide hazards.
    Critical needs include--(1) expansion of coordinated landslide 
response capability to provide more effective response by the USGS, and 
(2) establishment of a cooperative external grants program to support 
landslide hazard mapping and related activities by states and local 
partners. Efforts should be targeted to the communities at the greatest 
risk. Identification of these communities requires a national-scale 
effort supported by the next-generation of topographic data (3DEP). 
Collaborations would leverage USGS research and broaden impact.
    Establishing this program would provide a framework enabling 
communities to identify high-risk areas and apply USGS science to 
reduce landslide losses.
   Responses of Suzette M. Kimball to Questions From Senator Cantwell
    Question 4. USGS Landslides and Climate Change--In Western 
Washington, the severe storms in December of 2007 caused more than 730 
landslides in the Upper Chehalis Basin. Storms like these are expected 
to increase in frequency and intensity due to climate change.
    Is landslide risk increasing with climate change? How will climate 
change alter USGS landslide research, hazard mitigation planning and 
response? In your view, does the USGS currently have the resources and 
personnel to address these emerging landslide threats? How can the USGS 
help our states and communities better prepare for existing and 
emerging landslide threats?
    Answer. The USGS cannot detect a general change in landslide 
activity, in part because a comprehensive catalog of landslide 
occurrence is not kept and baseline data are not available for 
comparison. Such an effort would require a level of resources well 
beyond what is envisioned in the National Landslide Strategy. 
Attributing any change in landslide activity to climate change is 
confounded by any increase that may be associated with land use change 
and increasing population. However, an increase in the frequency or 
severity of extreme weather events would likely cause an increase in 
landslide activity.
    The USGS Natural Hazards Science Strategy (http://pubs.usgs.gov/
circ/1383f/) outlines a framework to examine the role of climate change 
on landslides, particularly where their frequency and severity are 
expected to increase with increases in wildland fire and rising sea 
level.
    The USGS has a Mission Area dedicated to advancing the 
understanding of changes in climate and land use. Current landslide 
program resources are dedicated to dealing with existing threats. We 
are exploring additional partnerships to better understand and address 
the potential interactions of climate change and landslides.
    Question 5. USGS Research and LIDAR--As you know, LIDAR data is 
used to measure fine scale topography across landscapes. LIDAR data has 
proven to be key in identifying risk factors that could contribute to 
landslides, like the one in Oso, Washington earlier this year. LIDAR 
data is especially important in areas where there is significant 
vegetation, such as Western Washington state.
    While some LIDAR is funded by USGS-it is usually funded through 
grants which states, counties, tribes and local communities use to pay 
contractors to take measurements. What happens to that data once it is 
used on a local scale?
    Answer. The National Geospatial Program tracks publicly available 
LIDAR data and uses it to maintain the National Elevation Dataset. This 
process is transitioning to the 3D Elevation Program, or 3DEP. The 
primary goal of 3DEP is to acquire, and electronically deliver, a 
national LIDAR dataset to the public. In support of that goal, the USGS 
has developed a standard specification for LIDAR, and has awarded 
special contracts which are available to all Federal agencies, States 
and local partners to increase the opportunity for collaboration on 
LIDAR acquisitions.
    Through 3DEP, the USGS has been successful in acquiring LIDAR (and 
other geospatial data) using funds from Federal, State, and local 
partners. In fiscal year 2013 every dollar invested by the USGS in 
LIDAR was matched by $6 from partners.
    The goals of using a collaborative process to acquire LIDAR 
include: I) gaining efficiency and economies of scale in acquisition, 
2) ensuring data are collected in formats that permit them to be 
useable with other collections, and 3) ensuring that the data collected 
are put into the public domain.
    The Federal Geographic Data Committee, an interagency body, 
coordinates effective collection of geospatial information, including 
LIDAR, across the Federal government. All entities which collect LIDAR 
are encouraged to do so to national standards.
    Question 5a. Does the USGS receive and analyze this LIDAR data and 
other similar landslide risk data?
    Answer. Our landslide hazards specialists use these data and any 
other available data to analyze landslide threats.
    Because much of this data collection is done by contractors on the 
local scale, does the USGS know which parts of the country have been 
mapped and which areas haven't? Is there value in pooling that data to 
look at risks on a regional or national scale?
    Answer. We do know which parts of the country have been mapped 
using LIDAR. As part of an analysis completed in 2012 we developed a 
map of all available LIDAR data according to its quality level, i.e. 
the resolution of the LIDAR data. Below is a map* showing LIDAR 
available at a quality level necessary for landslide hazard 
investigations. (Adapted from www.csc.noaa.gov/inventory.)
---------------------------------------------------------------------------
    * All maps have been retained in committee files.
---------------------------------------------------------------------------
    Landslide specialists make use of this data to analyze hazards. 
3DEP leverages resources to make more data available for many purposes, 
including landslide hazards research.
    Question 6. Oso Landslide Response and Support--Seven weeks ago, a 
massive mudslide struck the community of Oso, Washington. 41 people 
have died and two are still missing. Despite this tremendous loss, the 
communities of Oso, Darrington and Arlington are working tirelessly 
towards recovery. USGS geologists, hydrologists and other researchers 
have been on the ground in Oso assisting in recovery efforts.
    In addition to researchers and spotters on the scene, FEMA also 
requested additional USGS forensic geologists to conduct research to 
determine the root causes of the slide with the hope of minimizing 
future disasters like this one. Does the USGS have the resources it 
needs to support ongoing recovery and monitoring needs in addition to 
the forensic geology investigation? If not, what does USGS require to 
ensure Oso response and research needs are met?
    Answer. The USGS mission to assist Snohomish County and Washington 
State to support the recovery operation ended with the suspension of 
active search operations and the handover of responsibility ofthe 
operation to Snohomish County on April28, 2014. Maintaining the 
monitoring and near-real-time assessment of slope stability from March 
27 to April 28 required the efforts of more than 20 USGS scientific, 
support, and managerial staff from four USGS Science Centers and 
Headquarters. This included the efforts of 12 landslide technical 
specialists, a number that represents about 60% of USGS personnel with 
the appropriate skills and experience to perform such duties. 
Additional resources would be necessary to continue the geologic 
investigation of the SR530 landslide.
    Question 6a. Has the USGS received funds from FEMA to support USGS 
activities in Oso? If so, how much funding has been received? If not, 
when do you expect you will receive support from FEMA? Has the USGS 
been able to respond to all requests from FEMA and Snohomish County 
without immediate funding from FEMA?
    Answer. The USGS was able to respond to a request from Snohomish to 
assess ongoing threats and provide monitoring to support the search and 
recovery operations. After a major disaster declaration was made, the 
USGS received three FEMA mission assignments at the request of the 
State and County. Those mission assignments total $561,000 from FEMA to 
cover costs incurred in the response for both landslide and water level 
monitoring. At this time, the funding sources to support geologic 
investigation of the SR530 slide and examination of landslide hazards 
in the North Fork of the Stillaguamish River have not been identified. 
The USGS is formulating a proposal in cooperation with the State and 
County to establish an Interagency Agreement with FEMA to support this 
work. The approximate total budget is $3,000,000.
     Response of Suzette M. Kimball to Question From Senator Wyden
    Question 7. The injection of wastewater from oil and gas 
development can, and in some cases does, trigger earthquakes. Since 
2010, the rate of moderate-size earthquakes has increased dramatically 
in the continental U.S. as rates of wastewater injection have 
increased. Earthquakes have now been tied to wastewater injection in 
Oklahoma, Texas, Ohio, Colorado, and Arkansas. In Oklahoma, the rate of 
earthquakes has increased so substantially that geologists have termed 
it an ``earthquake swarm''.
    I am concerned about this correlation between the rise in 
earthquakes in oil and gas producing states and the injection of 
wastewater from oil and gas drilling activities in deep disposal wells.

    A. What is your assessment of the science connecting wastewater 
injection in these states to the increase in earthquakes?
    B. In your role as Director of USGS, what will you do to better 
understand this issue?
    C. What should the next steps be to better understand and manage 
these events?

    Answer. USGS has found that potentially damaging seismic events can 
be triggered by disposal of waste fluids from oil and gas production 
operations by injection into deep underground injection wells. While 
the basic geophysical mechanisms are well known, the specific 
subsurface conditions that are conducive to triggering are not, and it 
is not yet possible to make site-specific hazard predictions in 
advance. Thus, there is a need for more data and analysis to relate 
injection operations to induced seismicity, to connect these events to 
specific operational parameters and geologic conditions, and to develop 
monitoring and mitigation plans for decision-makers attempting to 
minimize seismic risks.
    The USGS is now working with the Department of Energy and the 
Environmental Protection Agency to undertake research and work with 
industry on case studies that will illuminate the physical factors 
controlling induced earthquakes. Top-priority efforts are to develop 
methods to forecast whether or not a particular type of injection 
operation in a specified geologic setting would be likely to induce or 
trigger earthquakes, to perform comprehensive studies at two carefully 
selected field sites, and to establish procedures to adapt the National 
Seismic Hazard Maps to take account of the additional hazard due to 
earthquakes induced in association with wastewater from the production 
of oil and gas.
    Response of Suzette M. Kimball to Question From Senator Portman
    Question 8. Ohio is home to a portion of the Utica shale formation 
which has been a target of heavy investment by the oil and gas 
industry. What, if any, analysis has USGS conducted or is in the 
process of conducting related to the Utica formation?
    Answer. In 2012, the USGS completed an assessment of the 
undiscovered, technically recoverable oil and gas resources of the 
Ordovician Utica Shale of the Appalachian Basin Province (bttp://
pubs.usgs.gov/fs/2012/3116/). The Utica Shale assessment covered areas 
in Maryland, New York, Ohio, Pennsylvania, Virginia, and West Virginia. 
The USGS estimated mean undiscovered resources of 940 million barrels 
of oil, 38 trillion cubic feet of natural gas, and 208 million barrels 
of natural gas liquids. These new estimates are for technically 
recoverable oil and gas resources, which are those quantities of oil 
and gas producible using currently available technology and industry 
practices, regardless of economic or accessibility considerations. The 
USGS Utica Shale assessment was undertaken as part of a nationwide 
project assessing domestic petroleum basins using standardized 
methodology and protocol.
    Response of Suzette M. Kimball to Question From Senator Portman
    Question 9. Asian carp remain a looming threat to the Great Lakes 
ecosystem. USGS plays an important role in combating the spread of 
invasive species like Asian carp. The agency conducts scientific 
analysis to support federal efforts to prevent, contain, control and 
manage invasive species nationwide. Last year, USGS was involved in 
analyzing four grass carp that were caught by fisherman in the Sandusky 
River, a tributary of Lake Erie. If confirmed, will you commit to 
supporting USGS' efforts to prevent the spread of Asian Carp to the 
Great Lakes?
    Answer. The USGS has been conducting research to provide scientific 
information and develop methodologies to better prevent the spread of, 
detect, and control Asian carp. The Department of the Interior 
recognizes the threat posed to the Great Lakes region due to the spread 
of Asian Carp, and is taking proactive steps to prevent its spread to 
the Great Lakes. The USGS continues to work alongside the U.S. Fish and 
Wildlife Service on the Asian Carp Regional Coordinating Committee, a 
multi-agency body that coordinates efforts to prevent Asian carp from 
reaching the Great Lakes. USGS received additional funding in FY14 for 
Asian carp research, and those funds are being used to fast track the 
transfer of monitoring and control technology to field use.
    I recognize the threat that Asian carp pose to the Great Lakes 
ecosystem and to the $7 billion Great Lakes fishery. If confirmed, I 
will continue to support USGS science to detect, monitor and control 
the spread of this invasive species.
     Response of Suzette M. Kimball to Question From Senator Flake
    Question 10. As Director of the USGS, I understand that you will be 
working with a variety of entities inside the Department of the 
Interior, as well as outside groups. Among those outside groups are 
various educational institutions. In Arizona, where we are always 
looking for ways to proactively address water resource challenges, the 
Water Resource Research Center at the University of Arizona has done 
great work analyzing diverse water issues. What opportunities do you 
see for continued collaboration and analysis between the USGS and 
educational institutes such as the Water Resource Research Center?
    Answer. The Water Resources Research Center at the University of 
Arizona is one of 54 Water Resources Research Institutes (WRRis) across 
the Nation in each of the 50 states, District of Columbia, Puerto Rico, 
U.S. Virgin Islands and Guam. The WRRis are very valuable State-Federal 
partnerships that are becoming stronger every day. We have worked 
closely with the leadership of the WRRis, and have put together a 
strategic plan to closely link the connection between the WRRis and the 
USGS. Going forward into the future, the USGS will be able to 
demonstrate the value of these partnerships, and demonstrate the 
utility of the projects that are being conducted at the various WRRIs.
  Responses of Suzette M. Kimball to Questions From Senator Murkowski
    Question 11a. According to the USGS, many of the black brant who 
spend summers in Alaska winter in Baja California, near San Quintin 
Bay, Mexico. As you know, the comfort of these birds during their brief 
stopover in the Izembek National Wildlife Refuge has become a primary 
reason for which Secretary Jewell has denied a lifesaving road for the 
residents of King Cove, Alaska. I am trying to understand a bit more 
about the environment in which the black brant spend their winters. 
From what I understand, during their time in San Quintin Bay, the birds 
deal with disturbances by hunters, aircraft, vessels and other avian 
predators, is that correct?
    Answer. USGS published science and observational data demonstrates 
that black brant are exposed to disturbance throughout their entire 
range, during breeding in Alaska, migration stop over locations in 
Canada and the lower-48 and during winter in Mexico. Birds deal with 
disturbance (predators, human foot traffic, and aircraft) by flying 
away from nesting, roosting or foraging sites and consequently spending 
less time engaged in these activities and expending energy in the 
response flight. Historically, the winter and spring distribution of 
brant included most of coastal North America from Washington to Mexico. 
Over time, much of the wintering range was abandoned in the U.S. by the 
birds, likely as a result of increased disturbance. Historical spring 
habitats in California were also abandoned due to hunting that was 
allowed in those areas. Additionally, USGS and USFWS science has found 
that more black brant stay in Alaska for winter. The number of birds 
wintering at Izembek has steadily increased over time, from 5,000-7,000 
in the 1980s to 41,000-45,000 in the past three years. The direct 
energetic costs of disturbance and disturbance thresholds resulting in 
abandonment of historical wintering habitats are unknown.
    Question 11b. If yes, can you describe how, with these 
disturbances, the birds are then able to make the migration flight to 
Alaska?
    Answer. The return migration to Alaska occurs as a series of steps 
up the west coast, where birds stop and forage along the route. The 
energetic costs of disturbance may result in birds delaying departure 
from wintering areas, spending more time at staging locations 
attempting to ``make up'' for reduced body condition, or arriving at 
the breeding grounds in relatively poorer body condition. Brant rely on 
stored body reserves to both produce eggs and incubate the clutch. 
Therefore, reductions in body condition could result in fewer birds 
attempting to breed, smaller clutch sizes, and/or reduced nesting 
success.
    Question 11c. Do you believe these disturbances in the black brant 
winter habitats are greater now than would be observed if a small, one 
lane gravel road were to be put in the Izembek refuge?
    Answer. We don't know what the current level of disturbance in 
Mexico is. However, two wintering locations used by black brant in Baja 
Mexico (San Ignacio Lagoon and Ojo de Liebre) are biosphere reserves 
where hunting is prohibited. The daily energy expenditure for black 
brant wintering at Izembek lagoon is certainly higher than for birds 
wintering in Mexico. Also, food resources (eelgrass) are limited in 
Alaska and only available during low tides. Taking into account both 
higher energetic costs and limited food supply, the energetic cost of 
individual disturbance events for black brant wintering at Izembek 
Lagoon is likely higher than for birds wintering in Mexico. I am 
unaware of any systematic studies comparing these energy costs to road 
use.
    Question 12a. I have introduced a broadly bipartisan bill--with 18 
other Senators also in support--entitled the Critical Minerals Policy 
Act of2014. Earlier this year, we held a legislative hearing on it, and 
Dr. Larry Meinert of USGS noted that he was ``thrilled and delighted'' 
to see it introduced. With our nation heavily dependent on foreign 
nations for a wide variety of minerals, do you think there is more we--
as federal policymakers--can be doing to reconstitute our domestic 
critical minerals supply chain?
    Question 12b. Do you know, roughly or approximately, what 
percentage of USGS's budget is devoted to mineral-related programs in 
this fiscal year? Are you concerned that it has dropped over time, or 
been overtaken by other priorities?
    Question 12c. Again, Dr. Meinert noted that he was "thrilled and 
delighted" by our critical minerals bill. Have you read through it? Can 
you give us your reaction to it, and hopefully offer a similar 
statement of support for it?
    Answer. The Critical Minerals Policy Act of 2014 addresses 
important issues of national concern. The legislation identifies 
appropriate responsibilities for Federal agencies, including the USGS, 
to respond to these national needs and provides welcome authorization 
for financial support to carry out those tasks. The Mineral Resources 
Program is a core part of the overall USGS mission and is the largest 
budgetary part of the Energy and Minerals mission area, one of seven 
mission areas that constitute the USGS. In 2014, approximately 4.5% of 
the total USGS budget was allocated through the mineral resources 
program. This number does not account for funds expended in other 
mission areas that contribute to mineral resource objectives, nor does 
it reflect reimbursable funding.
    Dr. Meinert's enthusiasm for the core mission of the Mineral 
Resources Program is shared at the highest level of the USGS. After a 
short hiatus to assess our minerals mission goals and objectives, we 
are ready to pursue those objectives aggressively. If confirmed, I will 
support and advocate for this program. I also share Dr. Meinert's 
enthusiasm that the pending Critical Minerals Policy Act of 2014 
addresses appropriate national priorities, and we welcome support for 
this part of the USGS mission.
    Question 13a. One of the provisions within our Critical Minerals 
Policy Act is aimed at bolstering our forecasting capacity for mineral 
supply and demand. I think this is an important function, largely 
missing right now, that would benefit industries throughout our 
economy. a. Can you describe the current status of USGS's capacity to 
forecast and analyze trends in minerals supply and demand for our 
critical industries?
    Question 13b. Do you agree that a forecasting capacity would be 
worthwhile for the federal government to pursue?
    Question 13c. What do you think it will take to enable the USGS to 
perform those functions?
    Question 13d. With our nation heavily dependent on foreign nations 
for a wide variety of minerals, do you think there is more we--as 
federal policymakers--can be doing to reconstitute our domestic 
critical minerals supply chain?
    Answer. The Critical Minerals Policy Act of2014 addresses the 
important national need for accurate information about critical mineral 
resources. Such information is currently supplied by the National 
Mineral Information Center within the Mineral Resources Program of the 
USGS. This important information function, which has been carried out 
within a constrained budgetary climate, remains the gold standard for 
mineral resource information, on both the national and international 
levels. The ability to analyze this information to better understand 
future trends is a core capability of the National Mineral Information 
Center that we are in the process of rebuilding. The level of funding 
authorized in the Critical Minerals Policy Act of 2014 would enhance 
the USGS's ability to rebuild this important function. As federal 
policymakers address the domestic critical minerals supply chain, USGS 
remains committed to providing the scientific information to inform 
decisions.
    Question 14a. The last time the USGS released a study on water use 
data in 2009 was based on 2005 data. I understand that the USGS is 
working on the release of an update to that study. This data will 
greatly assist efforts on the energy-water nexus issues. a. When will 
the updated study be released?
    Answer. The 2010 Estimated Use of Water in the United States is 
planned to be released in an electronic publication in late fall 2014. 
The paper copies of the report will follow soon after.
    Question 14b. Will the updated data also include water consumption 
data in addition to the withdrawals data that was the only water use 
reported in the last report? I think both sets of data would be very 
useful.
    Answer. For 2010, consumptive use information for only the 
Thermoelectric Cooling Water Sector will be included, and the 
consumptive use data will be released in a separate, stand-alone 
report, which is planned to be released in fall 2014. Producing 
scientifically defensible consumptive use estimates for all water use 
sectors is a complex and significant undertaking, and we have started 
by focusing on the thermoelectric cooling water sector. Research is 
underway on consumptive use estimation for other major sectors, 
including public supply water withdrawals and irrigation water 
withdrawals, but inclusion of these data in our routine reporting is 
still several years away.
    Question 14c. To what extent does the USGS work with the Energy 
Information Administration (EIA) to coordinate the required data for 
energy-water related activities? Can this working relationship be 
strengthened and improved?
    Answer. The USGS National Water Use Information Program works 
closely with the Energy Information Administration's Office of 
Electricity, Renewables, and Uranium Statistics on our energy-water 
related activities. We have worked very closely since 2009 to produce 
the first nation-wide model for estimating thermoelectric cooling water 
withdrawal demand and consumptive use. This model was recently released 
and documented in the following publication, which is available on-line 
at: bttp://pubs.usgs.gov/sir/2013/5188/ ``Methods for Estimating Water 
Consumption for Thermoelectric Power Plants in the United States''. 
While working relationships can always be strengthened and improved, I 
feel that the work that USGS and EIA are doing together is one of the 
best examples of interagency cooperation.
    Question 15. My home state of Alaska is very vulnerable to many 
natural hazards and disasters. There is a long standing partnership 
between the USGS, the state of Alaska, and the University of Alaska 
Fairbanks in hazards education, research, monitoring, and warning for 
earthquakes and volcanoes. These programs have been very successful, 
but have been severely limited by current budgets. What can be done to 
strengthen these partnerships?
    Answer. USGS scientists work closely with State and university 
partners to better understand and address the volcano and earthquake 
hazards facing Alaskan communities. The recent anniversary of the great 
1964 earthquake provided an opportunity to review the remarkable 
scientific advances of the past 50 years that are keeping people safer 
in Alaska and around the world; I deeply appreciate your recognition of 
these efforts through S. Res. 400.
    In recent years, significant funding from the American Recovery and 
Reinvestment Act enabled upgrades to earthquake and volcano monitoring 
networks and supported investigations by a number of university and 
State partners. This year, USGS is working with Alaska Division of 
Geological and Geophysical Surveys and the University of Alaska 
Fairbanks to update the Alaska National Seismic Hazard Maps and to 
continue support for the Alaska Volcano Observatory. Also this year, 
the National Science Foundation-funded Transportable Array (TA) of 
temporary seismometers is moving from the Eastern United States into 
Alaska; the USGS is supporting this effort. A number of T A stations in 
the Lower 48 have been successfully adopted by partners and are 
remaining in place; similar partnerships in Alaska might enable 
instruments to remain after the experimental deployment ends, further 
strengthening Alaska's seismic networks.
    It is expensive to maintain seismic and geodetic stations, 
particularly in remote parts of Alaska, but this scientific 
infrastructure provides the essential data that keep our scientific 
partnerships healthy and productive. If confirmed, I would be happy to 
work with you to explore other opportunities for expanding and 
strengthening partnerships to protect people in Alaska and around the 
world.
    Question 16. A key part of USGS's traditional mission was to map 
American resources. Now we have whole new technologies to help with 
mapping of our resources, such as LIDAR (Light-Detection and Ranging) 
technology. What do you see as the survey's role in future mapping of 
the geophysical features of America and what is your view of how the 
survey should be working with the states on geology, besides other 
scientific research?
    Answer. Conducting geological surveys remains an important 
component of the USGS mission. USGS continues to invest in numerous 
mapping activities, including the National Cooperative Geological 
Mapping Program, which advances the understanding of earth-surface 
processes, groundwater availability and quality, and energy and mineral 
resources. This program produces geologic maps and subsurface 3-
dimensional frameworks that support mineral and energy exploration, and 
aquifer characterization which are used to mitigate against natural 
hazards (e.g. landslides). Through the data innovation and mapping 
initiative, the USGS continues to invest in the growing need for high 
quality topographic data and the need for a wide range of other three-
dimensional representations of the Nation's natural and constructed 
features. The Three-Dimensional Elevation Program initiative will 
systematically collect enhanced elevation data using LIDAR and other 
technologies across the United States. If confirmed, I look forward to 
continuing USGS' efforts toward advancing the mapping of geophysical 
features in the United States.
    The USGS considers the states to be essential partners to acquire, 
analyze and disseminate information on a wide variety of geological 
issues. In addition to local coordination, the USGS meets with the 
state geologists twice yearly to identify new issues and needs for 
collaboration.
    Question 17. The USGS has always been the lead in predicting oil 
and gas resources in America and worldwide. The agency's evaluations 
for Alaska's onshore potential, combined with BOEM off shore 
predictions, amount to a mean estimate of 43.8 billion barrels of yet 
untapped oil; 291 trillion cubic feet of conventional gas; and nearly 
400 trillion cubic feet if unconventional gas is included (not 
including methane hydrate reserves). However, this work has been 
largely performed with limited seismic data, usually involving two 
dimensional testing, not three dimensional, and in some cases with no 
seismic data at all. I believe we need a reliable estimate of our 
natural resources. Do you agree that we should be funding a more 
detailed study of our nation's energy resources, including new seismic 
testing, so we can obtain a realistic estimate of our energy resources?
    Answer. The USGS periodically updates its resource assessments to 
take into account advances in geologic understanding, industry 
practices, and new available data, such as two-dimensional and three-
dimensional seismic data. The USGS has forged cooperative agreements to 
provide access to high-quality seismic surveys at significantly reduced 
costs. The USGS can now access a grid of2-D seismic data, some of which 
were collected as recently as 2012, totaling nearly 250,000 line miles 
across Arctic Alaska, the Chukchi Sea shelf and adjacent parts of 
Russia, and the Beaufort Sea shelf and adjacent parts of Canada. 
Interpretation of these extensive data sets, often conducted in 
collaboration with the BOEM, assures an integrated federal perspective 
on oil and gas resource potential both onshore and offshore. The USGS 
strives to maintain expertise and capabilities for incorporating 
seismic data into its research and assessments to help reduce 
uncertainties associated with estimates of undiscovered resources. The 
technology to support these investigations is evolving rapidly. Our 
ability to engage in public-private partnerships is an important 
component supporting these detailed studies.
    Question 18. In the past, the USGS has always been the lead in 
exploring for our nation's vast mineral resources. In recent years, 
however, your funding priorities seem less directed toward mineral 
discoveries. Alaska, though, still has vast areas that have been poorly 
mapped for resource potential. What is your view of the department's 
role in mineral exploration? Should USGS be increasing, not decreasing 
its mineral exploration work not just in Alaska, but nationwide?
    Answer. The USGS is the leading Federal source for public science 
on mineral resources. The Mineral Resources Program is refocusing 
attention on mineral resources-particularly in Alaska, which is one of 
the five priority areas of the Mineral Resources Program. This 
attention includes basic geological mapping, geophysics and 
geochemistry, and a state-wide inventory of critical mineral resources 
in partnership with the State of Alaska (Division of Geological and 
Geophysical Sciences), as well as targeted studies on emerging 
discoveries such as the Bokan Mountain rare earth element deposit in 
southeast Alaska.
    Question 19. The 1879law creating the U.S. Geological Survey 
describes your position as follows: ``The Director of the United States 
Geological Survey, which office is established, under the Interior 
Department, shall be appointed by the President by and with the advice 
and consent of the Senate. This officer shall have the direction of the 
United States Geological Survey, and the classification of the public 
lands and examination of the geological structure, mineral resources, 
and products of the national domain.'' Is your own view of the USGS's 
current role consistent with this original founding language?
    Answer. Yes. Although the USGS does not manage resources, its 
scientists work to describe and understand water, energy, mineral and 
biological resources-all products and resources of the national domain-
providing reliable, timely information to States, localities, tribes 
and the Department and its partners. In my view the Organic Act 
provides for the study of the Earth for the benefit of the American 
people, and all people around the world, and I wholeheartedly agree 
that the current role of the USGS is consistent with this fundamental 
sentiment.
    Question 20. According to data provided by USGS to my committee 
staff last year, there are some 226 international agreements between 
the Geological Survey and other nations - 24 with China, 16 with 
Canada, 7 with Japan, and so on. As you know, I have been advocating 
for the United States to play a leading role in global energy issues. 
Could you talk a bit about how the Survey's work overseas helps its 
mission here at home?
    Answer. A 2012 National Research Council recognized that `` . . . 
many of the issues that are critical to U.S. national interests are 
inextricably linked to global issues'' and that USGS international 
science has an important role to support informed and effective 
decision making in the national interest. Energy is a key component of 
the global economy, with the potential to affect U.S. economic 
development and national security. The USGS is the sole provider of 
unbiased, publicly available estimates of geological energy resources 
for the United States, exclusive of the U.S. Outer Continental Shelf, 
and provides publicly available estimates of global oil and gas 
resources. The knowledge gained from recent USGS international energy 
studies, such as Arctic oil and gas, unconventional oil and gas, and 
gas hydrates supports the USGS mission here at home by providing 
impartial, robust, publicly available information for understanding 
potential global and domestic energy supplies and for discussions of 
national energy policy.
    Question 21. It caught my attention when USGS recently announced 
that Afghanistan- and not the United States -was the "first country to 
be almost completely mapped using hyperspectral imaging data." I 
understand that capability can now be used here in the United States. 
So, my question to you is, how do you plan to use it here?
    Answer. The groundbreaking hyperspectral imaging work in 
Afghanistan was made possible by the combined effort and funds of the 
Government of Afghanistan, Department of Defense, and US AID funds. 
This allowed development of new capabilities that can be applied in the 
United States, if funding becomes available. To demonstrate that 
capability, the USGS is currently beginning a demonstration project 
using hyperspectral imaging in central Alaska. If future funding 
becomes available it would allow us to expand such work to other areas 
of the United States.
    Question 22. To your knowledge, are there any USGS personnel 
currently stationed overseas? If so, where and for what purpose?
    Answer. Three USGS personnel are stationed overseas. One is the 
liaison to the Department of Defense's AFRICOM in Stuttgart, Germany. 
The other two are stationed in the United Arab Emirates supporting 
water resource development. All three are supported under full cost 
reimbursable agreements.
    Question 23. To date, President Obama has created nine new National 
Monuments. As you know, a National Monument designation has wide-
ranging effects and impacts on local communities and regional 
economies, and with the creation of these new public land units comes 
additional regulations and a new legal framework. Any potential 
resource development is effectively locked up. I would like to 
understand the role that USGS plays within the Department of the 
Interior when background research is being conducted for a potential 
monument. In my view, USGS should play an integral role in interagency 
conversations regarding monument designations so that Interior and the 
Administration fully understand the amount of energy and mineral 
resources that will be impacted by a designation. Does USGS, as a 
matter of course, make a point of providing information about resource 
potential to the Federal Land Management Agencies prior to the 
designation of a new National Monument? If not, why not? Please explain 
the role of USGS in the Monument designation process.
    Answer. The USGS has no regulatory or resource stewardship 
mandates. The USGS monitors, analyzes, and provides scientific 
understanding about natural resource conditions, issues, and problems. 
The diversity of our scientific expertise enables us to carry out 
large-scale, multi-disciplinary investigations and provide impartial 
scientific information to resource managers, planners, and other 
customers, that can be used to inform decisions, such as the Monument 
designation process. The results of our research and monitoring are 
publicly available. I am not aware of a role the USGS has played in the 
monument designation process.
    Question 24. When Congress considers legislation to establish or 
expand public land units, to what extent does USGS prepare estimates of 
the energy and mineral resources located there? As a matter of course, 
does USGS provide this information to Federal Land Management Agencies 
or any other agencies to help inform any testimony those agencies may 
give before Congress or decisions regarding the impacts of proposed 
legislation? If not, why not?
    Answer. When Federal agencies are tasked with advising Congress 
about energy and mineral resource potential on Federal lands in 
relation to pending legislation, the USGS contributes to the evaluation 
by supplying the science necessary to assess resource potential as 
requested. The USGS has ongoing joint projects with Federal agencies 
such as BLM in inventorying mineral resources in Alaska and other 
regions of jurisdiction. In addition, the USGS is supplying the science 
to support land management decisions and the designation process 
concerning the uranium assessment of lands surrounding the Grand 
Canyon.
                                 ______
                                 
       Response of Estevan Lopez to Question From Senator Manchin
    Question 1. As you know, the Bureau of Reclamation is one of the 
largest producers of hydropower in the United States. If confirmed, 
what would your priorities for this program be?
    Answer. As I mentioned at my hearing, there remains a great deal of 
opportunity for creating additional hydropower production in the United 
States by utilizing existing reservoirs or dams for power generation. I 
believe we have to do everything that we can together with our partners 
to maximize the availability of hydropower. I understand that recent 
studies conducted by the Bureau of Reclamation have revealed that an 
additional 1.5 million megawatt-hours potential hydropower capacity 
could be generated at existing Reclamation sites. Hydropower is an 
important source of electricity, and if confirmed I hope to pursue 
further opportunities to develop sustainable, responsible hydropower.
      Response of Estevan Lopez to Question From Senator Cantwell
    Question 2. As you may know, for decades there has been confusion 
over the scope of federal, state, and tribal jurisdiction on Lake 
Roosevelt, which is the reservoir of the Grand Coulee Dam. The Indian 
tribes that have fishing rights within the Lake Roosevelt National 
Recreation Area have long been concerned that jurisdictional 
uncertainty affects their ability to enact and enforce regulations 
necessary to protect their fishing rights. I understand that the 
Department has been working to clarify. these issues with the tribes. 
If confirmed, would you commit to resolving these issues and 
implementing a solution going forward?
    Answer. I have been advised that the Spokane Tribe of Indians and 
Confederated Tribes of the Colville Reservation have requested a 
delegation of authority from the Department of the Interior to enforce 
tribal fishing regulations on areas within their reservations included 
in Lake Roosevelt. It is my understanding that the request is under 
consideration by the Department. If confirmed, I commit to join my 
colleagues within the Department to work with you and the Indian tribes 
toward a resolution of this issue.
     Responses of Estevan Lopez to Questions From Senator Heinrich
    Question 3. As you know, the Bureau of Reclamation is a critical 
partner in the construction of the Eastern New Mexico Rural Water 
System, which will provide a reliable water supply to seven communities 
in Eastern New Mexico, as well as Cannon Air Force Base.
    Unfortunately, the funds available from the Bureau of Reclamation 
for the construction of this and other rural water supply projects has 
been far below what is necessary to complete them. For eastern New 
Mexico, it would take more than 180 years to complete the project if 
funding continues as it has-and this community is expected to run out 
of water in less than 20 years.
    As commissioner, will you work with this committee, and other 
interested senators, to find a way to finish these rural water projects 
once and for all?
    Answer. I recognize and understand your frustration with the pace 
of these important rural water projects. Access to clean water is not a 
luxury, it is a necessity of life and crucial for economic growth. As I 
mentioned in my opening statement, I have supported development of the 
Eastern New Mexico Rural Water Supply Project to deliver water from the 
Ute Reservoir on the Canadian River to communities like Clovis and 
Portales, New Mexico. If confirmed, I look forward to working with you 
within current budget constraints and to identify creative approaches 
for developing financing alternatives to continue to make progress in 
promoting certainty, sustainability, and resiliency for those who use 
and rely on water resources in the West, and in supporting the basic 
drinking water needs of rural communities.
    Question 4. As you well know, all ofNew Mexico's water supply is 
fully appropriated-all of the water in the state is already spoken for. 
This means that smart water use-conservation, efficiency, coordinated 
management-are often the only tools that communities have to support 
new economic development, or to stretch their water supplies to make it 
through dry years.
    Can you talk about how you've worked to promote conservation and 
efficient water use during your time at the Interstate Stream 
Commission? How would you apply those experiences as Commissioner of 
the Bureau of Reclamation?
    Answer. As Director of the New Mexico Interstate Stream Commission, 
I was responsible for investigating, protecting, conserving, and 
developing New Mexico's waters. I am familiar with the efforts under 
way at the Bureau of Reclamation to address drought through 
conservation and efficient water use, including the ongoing Drought 
Contingency Planning effort, the Colorado River Basin Water Supply and 
Demand Study, and WaterSMART program. As part of the "Next Steps" 
process of the Colorado River Basin Water Supply and Demand Study, 
Reclamation and the Colorado River basin states have documented the 
successes of the municipal conservation efforts of cities like Santa Fe 
and Albuquerque, New Mexico and Las Vegas, Nevada each of which has 
been able to increase the population served while reducing overall 
water demand. Reclamation's WaterSMART program can provide a mechanism 
for expanding the use of these types of best practices. If confirmed, I 
look forward to building on the advances of Reclamation, and 
recognizing the importance of bringing all stakeholders to the table to 
have serious discussions on how we can make every drop count in the 
Colorado River Basin.
    The New Mexico Interstate Stream Commission has, through 
collaborative river management processes, worked with other 
stakeholders (including Reclamation) to coordinate the timing and 
magnitude of reservoir releases and flows in the Rio Grande and the 
Pecos River to optimize water use efficiency for agricultural, 
municipal, environmental and interstate stream compact compliance needs 
and often to meet multiple objectives with the same water. Also, as the 
drought has progressed and reservoir levels have dropped, the 
Interstate Stream Commission has partnered with Reclamation to 
construct and maintain a pilot channel to route water through Elephant 
Butte reservoir's exposed sediment delta thus reducing water loss 
through spreading and evaporation. This pilot channel is estimated to 
conserve approximately 20,000 acrefeet/ year, twice the amount of water 
consumed by the city of Santa Fe, New Mexico. By virtue of its 
ownership of infrastructure on the rivers of the west and its river 
management activities generally, Reclamation will continue to have a 
key role in these types of collaborative river management processes. If 
confirmed I will emphasize the importance of Reclamation's leadership 
role in these types of stakeholder collaborations.
        Response of Estevan Lopez to Question From Senator Wyden
    Question 5. Thank you, Mr. Lopez, for meeting with me before your 
nomination to discuss the importance of Reclamation and the urgent 
challenges associated with the critical resource- water. I appreciate 
getting a chance to discuss three water hotspots in Oregon that involve 
Reclamation: the Klamath Basin, Scoggins Dam in Washington County, and 
Bowman Dam in Crook County. All three are issues I've dedicated much 
time to this Congress and previous Congresses and I look forward to 
working with you to improve water management for those areas and across 
the west. Given that many of the issues around water in the west center 
around drought and water cycle disruption, I'd like to know what fresh 
ideas you would bring to the table to meet water challenges.
    Answer. I offer three ideas to help meet our water challenges.
    First, as we spoke about when we met in your office before my 
hearing, I believe that collaborative problem solving processes, while 
often frustratingly slow, are far better for generating workable 
solutions than litigation. Litigation is often initiated by parties who 
refuse to participate in these collaborative processes but rather 
choose to stay outside the process and ``throw rocks''. Many of the 
drought related and water cycle disruption issues you speak of end up 
triggering endangered species litigation. An idea which could perhaps 
help generate solutions is to reach out to entities who might otherwise 
be inclined to sue to encourage them to engage and participate in 
collaborative programs, a highly successful example of which is the 
Upper Colorado Recovery Implementation Program. Such participation 
would help sensitize all parties to the needs and objectives of others 
that might be otherwise overlooked.
    Second, we need to expand and make pervasive education about water-
its importance, its management, and the laws by which we govern it. 
Such education needs to be at all levels, from formal curricula for 
grade school through college to informal issue-specific education using 
mass media. Often, it appears that the participants in conflicts about 
water are misinformed or have a very shallow understanding of the 
issues. I believe that a better informed public would help shape better 
solutions to our water challenges.
    Third, pre-planning among entities that all rely on a common source 
of water about how to manage a reduced supply (e.g., due to drought) 
both from a legal right perspective and from a voluntary sharing 
perspective. Such pre-planning would likely help entities understand 
the potential impacts of a reduced supply and options for mitigating 
those impacts. Reclamation's Basin study program can provide an ideal 
forum for such pre-planning activities.
    If confirmed, I look forward to discussing with you how to advance 
these ideas.
       Responses of Estevan Lopez to Questions From Senator Flake
    Question 6. The Colorado River Basin is now in its fifteenth year 
of drought with shortages expected to be declared as early as 2016 or 
2017. In 2007, the Secretary of Interior adopted the ``Colorado River 
Interim Guidelines for Lower Basin Shortages and Coordinated Operations 
for Lake Powell and Lake Mead.'' Those Guidelines were agreed to by all 
seven Colorado River basin states and provide for quantified reductions 
in deliveries to Arizona and Nevada when the water level in Lake Mead 
falls below certain trigger elevations. What steps has the Bureau of 
Reclamation taken in anticipation of these projected shortages in the 
near-term?
    Answer. I am aware that Reclamation has aggressively pursued a 
multifaceted strategytogether with all of the states in the Colorado 
River Basin- of planning, operational improvements and, in some cases, 
new facility construction in the face of persistent drought conditions 
on the River. While I have not been party to all of those activities in 
my current cpacity, I have participated with Reclamation and the Upper 
and Lower Basin states in extensive discussions of potential future 
activities including options to increase water conservation, extend 
reservoir operations to protect critical reservoir elevations, and 
voluntarily manage demands. I would look forward to furthering these 
discussions if confirmed.
    Question 7. What role can the Bureau of Reclamation play in helping 
to secure cooperation among federal agencies so that they jointly 
facilitate efforts by Colorado River water users to maintain adequate 
water supplies?
    Answer. As I noted at the hearing, I am intimately familiar with 
the work being done on the Colorado River and in the Colorado River 
Basin. I have served as a representative to the Colorado River Compact, 
and I have served as commissioner to the Upper Colorado River Compact 
for the State ofNew Mexico. In that context, I am aware of the work 
being done by the Bureau of Reclamation in developing an Environmental 
Impact Statement (EIS) for a new Glen Canyon Dam Long Term Experimental 
and Management Plan (LTEMP). Reclamation is a colead agency in that 
effort along with the National Park Service. Each of the federal 
agencies involved in this effort has its own critical responsibilities. 
Reclamation's role in this effort will be to assure the meaningful 
engagement of federal agencies and other interested stakeholder groups 
including the seven Colorado River Basin States and also to assure that 
its own responsibilities of water and hydropower management are given 
due consideration. If confirmed,I look forward to working with the 
States and other stakeholders on this and other Colorado River issues.
    Question 8. In December 2012, the Bureau of Reclamation released 
the Colorado River Basin Supply and Demand Study that presents options 
to address the anticipated future imbalance between water supply and 
water demand in the basin. It included options that would augment the 
supply of the Colorado River. Can you please share what the Bureau of 
Reclamation is doing to study, promote or develop augmentation projects 
for the Colorado River Basin?
    Answer. The Study included a broad range of potential options to 
address the water supply and demand imbalance in the Colorado River 
Basin, which were put forth by participants, stakeholders, and the 
public. During preparation of the Study, Reclamation received input 
comprising over 150 options, including options related to small and 
large scale augmentation concepts. It is my understanding that the 
Department of the Interior is building on the findings of the Study and 
leading multi-stakeholder workgroups to investigate a full range of 
adaptation and mitigation strategies, which are being carried out in 
parallel with ongoing efforts throughout the Basin. If confirmed, I 
look forward to leading Reclamation in developing and implementing 
adaptation and mitigation strategies.
    Question 9. There are ongoing negotiations to resolve water rights 
claims along the Bill Williams River and enhance the Lower Colorado 
River Multi-species Conservation Plan or MSCP. To the extent those 
negotiations involve the Bureau of Reclamation, can you commit to 
making them a priority?
    Answer. The Lower Colorado River Multi-Species Conservation Program 
(LCR MSCP) is a multi-stakeholder program, including local entities, 
which provides Endangered Species Act coverage for the Bureau of 
Reclamation's ongoing and future river operations on the lower Colorado 
River. It is my understanding that Reclamation has also been involved 
in the Bill Williams River negotiations and other LCR MSCP activities 
to meet remaining habitat conservation plan requirements. If confirmed, 
I will continue to support these activities, which include working with 
local entities, to implement this important habitat conservation plan.
    Question 10. Throughout the West, we seem to be hearing more about 
the intersection of the Endangered Species Act and federal water 
policy. There are examples along the Colorado River regarding the 
balance between power production and fish downstream from Glen Canyon 
Dam and in California as drought has raised tension regarding water 
management in the Bay Delta. In many instances, the biological opinions 
and other rules regarding water management afford the Commissioner of 
Reclamation discretion in how he or she would manage the resource. You 
have some direct experience with this issue relative to the Silvery 
Minnow on the Rio Grande in New Mexico. Can you explain how, if 
confirmed, you would exercise your discretion as Commissioner to make 
water deliveries under extreme or sustained drought conditions?
    Answer. I recognize that the application of the Endangered Species 
Act to western waters has often been the source of controversy and 
conflict. Severe drought conditions have only served to exacerbate 
these conflicts. As Director of New Mexico's Interstate Stream 
Commission, I am intimately familiar with this tension from my 
experience finding river management solutions to difficult endangered 
species issues on the Rio Grande, San Juan, Pecos and Canadian Rivers. 
If confirmed, I will bring to bear my experience in New Mexico managing 
water supplies to develop strategies to cope with drought. 
Specifically, I intend to work to identify and maximize regulatory 
flexibility to adjust to changes in the weather and the environment to 
bolster water supplies when possible while minimizing the impacts to 
fish and wildlife. My experience with the Rio Grande silvery minnow 
during last year's unprecedented drought showed how water managers can 
work together to time the releases of water to meet multiple purposes 
with the same water. Also, water managers were able to work with the 
Fish and Wildlife Service to find flexibility within biological 
opinions. Finally, there is a move to making adaptive management a 
feature of biological opinions and recovery implementation plans thus 
building in additional flexibility into the regulatory structure.
    Question 11. Please provide a list of all electric power generation 
assets owned or partially owned by the Bureau of Reclamation or the 
Department of the Interior that are subject to EPA Clean Air Act 
regulations.
    Answer. It is my understanding that all but one of the Department's 
electric power generation assets are hydropower units, with the 
majority of those being in Reclamation's portfolio; the coal-fired 
Navajo Generating Station, of which Reclamation is a partial owner, is 
Reclamation's only non-hydropower facility. All Reclamation and 
Department electric power generation assets must comply with applicable 
Clean Air Act regulations. I understand that Reclamation's power 
facilities can be found at: www.usbr.gov/power/data/faclname.html.
    Question 12. If confirmed as Commissioner of Reclamation, would you 
have any concerns or objections with aggressively advocating the 
continued operation of the Bureau's electric generating assets?
    Answer. No. As the Bureau of Reclamation is the second largest 
producer of hydropower in the country, I look forward to continuing the 
Department of the Interior's aggressive, sustainable hydropower agenda, 
if confirmed.
    Question 13. Would you have any concerns or objections to opposing 
EPA regulation of the Bureau's electric generating assets if those 
regulations would curtail or terminate continued operation of 
Reclamation's electric generating asset?
    Answer. Where the Bureau of Reclamation has electric generating 
assets that emit air pollutants subject to regulation by the 
Environmental Protection Agency under the Clean Air Act, I would commit 
to working to ensure, if confirmed, that the Bureau of Reclamation 
complies with its statutory and regulatory obligations. This includes 
engaging in cooperative activities to achieve emissions reduction 
alternatives where necessary. This type of regulatory flexibility is 
built into the Clean Air Act, as I have observed in the case of the 
Navajo Generating Station. There, a Technical Work Group consisting of 
stakeholders, non-profits, and the Department of the Interior were able 
to reach an agreement to significantly reduce emissions from the Navajo 
Generating Station, while providing greater certainty for Bureau of 
Reclamation water and power customers.
    Question 14. If faced with a stringent EPA regulation that required 
significant capital costs associated with one of the Bureau's electric 
generating assets, where would you propose the Bureau look to secure 
funding to cover those capital costs?
    Answer. Based on my experience with Reclamation projects, costs 
associated with facility operations are primarily the responsibility of 
project beneficiaries, pursuant to contracts for project repayment and 
operations and maintenance. This would include costs associated with 
capital investments necessitated by regulations.
    Question 15. If EPA issues a regional haze rule for the Navajo 
Generating Station (NOS) that results in one unit of the plant being 
shutdown, do you believe that subsequent EPA Clean Air Act regulations, 
whether for regional haze, greenhouse gases, or otherwise, should take 
the shuttering of that unit into account? If not, how should the EPA 
treat that unit as part of future rulemakings?
    Answer. I understand that the Department is working with the EPA, 
tribes, project proponents, and a number other federal agencies on 
multiple issues at the NOS, of which the EPA's proposed Best Available 
Retrofit Technology (BART) rule is a central one. I understand that 
Reclamation and the Department are highly motivated to keep the NOS 
operating economically and in compliance with Clean Air Act regulations 
for as long as is feasible. I look forward to learning more about this 
issue if confirmed.
      Responses of Estevan Lopez to Questions From Senator Manchin
    Question 16. Mr. Lopez, I know you are quite familiar with the 
challenges associated with managing water in a drought environment. I 
am concerned that too often when water resources grow tight, there is 
an imbalance in how the agencies meet their environmental obligations 
when it comes to choosing between people and fish. Unfortunately, it 
appears the agencies often choose the fish, even when they have more 
flexibility than it would appear to supply water while protecting fish. 
So let me ask you:
    a. What will be your approach to navigating the tensions between 
ensuring water delivery while accommodating environmental requirements?
    b. How will you seek to empower your regional directors to ensure 
they are utilizing flexibility available to them under the law to the 
maximum extent possible to ensure water delivery to folks that need it 
in so many places?
    Answer. As I mentioned in my opening statement, given the 
Interstate Stream Commission's broad statutory responsibilities, I have 
been involved in finding river management solutions to difficult 
endangered species issues on the Rio Grande, as well as the San Juan, 
Pecos, and Canadian Rivers. These efforts for balancing the 
preservation of endangered species with other resource goals, including 
the protection of water users in the arid southwest, has required 
innovation, collaboration, and perseverance. I believe that a number of 
things can be done to balance the tensions between water and power 
delivery and compliance with environmental laws. If confirmed, I will 
continue to advocate for an aggressive science program to better 
understand the effects of different alternatives in decisions regarding 
water resources. I will also advocate for adaptive management to build 
in additional flexibility into the regulatory structure. If confirmed, 
I will work to advance Reclamation's efforts to conserve water and 
operate more efficiently.
    Question 17. The Bureau operates hundreds of dams, canals, and 
reservoirs across the West. Its facilities are decades old- many as old 
as 50-60 years, some as old as a century. In a time of limited 
resources and great need, what is your plan for prioritizing the 
replacement and upkeep of the aging infrastructure?
    Answer. I appreciate that as Reclamation's assets get older, there 
is and will be an increasing need to support funding for aging 
infrastructure. It is essential that Reclamation maintain and improve 
its existing infrastructure in order to deliver reliable water and 
power, ensure system reliability and maintained safety and sustained 
water conservation. I appreciate that aggressive action is required to 
address future water supply challenges and, if confirmed, I look 
forward to working with you on creative approaches for developing 
financing alternatives to address the aging infrastructure needs of 
Bureau of Reclamation projects.
    Question 18. As you know, there are serious drought conditions 
across the West, with seemingly no end in sight. As Congress grapples 
with this challenge year in and year out, it seems to be done on an 
adhoc, piecemeal basis. What actions do think Congress should take, if 
any, to address it in a more comprehensive, long term manner?
    Answer. As Director of the New Mexico Interstate Stream Commission, 
I was responsible for investigating, protecting, conserving, and 
developing New Mexico's waters. I am familiar with the efforts under 
way at the Department of the Interior to address drought through 
conservation and efficient water use, including the ongoing Drought 
Contingency Planning effort, the Colorado River Basin Water Supply and 
Demand Study, and WaterSMART program.
    Regarding Congressional action, I understand that the Department of 
the Interior has prioritized the WaterS MART program, which allows the 
Bureau of Reclamation and other Interior agencies to work with state 
and local water managers to plan for climate change, drought and other 
threats to water supplies. Under this initiative, it is my 
understanding that the WaterS MART grants program has contributed 
toward substantial water savings on annual basis. These grants help 
minimize the effects of drought on the environment and agriculture and 
urban communities, but also contribute to drought resiliency. If 
confirmed, I would support increasing the authorization ceiling for the 
WaterSMART grant program.
    Question 19. Last month, a comprehensive agreement was reached by 
all parties in the Klamath Basin. Shortly, there will be legislation 
before this committee that would codify that agreement. It is expected 
that the price tag will be in the hundreds of millions of dollars. What 
will the Bureau's role be in implementing that agreement, what share of 
costs be borne by the Bureau, and where do you expect the source of 
funding to be?
    Answer. If confirmed, I intend to continue the Department's 
commitment to Klamath River Basin restoration and recovery goals. I 
appreciate that Reclamation has played a leadership role among federal 
agencies, states, tribes, and the public to develop a Basin-wide 
recovery plan to resolve long-standing water supply and fisheries 
issues. I have not had the opportunity to review the Klamath Basin 
legislation; however, if confirmed I look forward to working with you 
to address the long-standing and very complex issues associated with 
the Klamath Basin.
    Question 20. The Western Watershed Enhancement Partnership program 
is a joint effort between the Bureau, the Forest Service, and the 
Natural Resource Conservation Service. It was launched as an 
interagency effort to protect water supplies from wildfires. What are 
your thoughts on the program?
    Answer. My understanding of the Western Watershed Enhancement 
Partnership is that the initiative will pool federal resources with 
those of local water users to identify and mitigate risks wildfires 
pose to water supplies, irrigation, and hydroelectric facilities. I 
believe partnerships such as this, which rely on robust local 
participation and support, can achieve important results for western 
states. I look forward to learning more about the program if confirmed.
    Question 21. A report generated by the Bureau of Reclamation stated 
that the November 18, 2013 fire at the John W. Keys III Pump-Generating 
Plant that caused hundreds of thousands of dollars in damage was caused 
by three separate errors by Reclamation employees and had nothing to do 
with the regular operation of the plant.
    a What responsibility does the Bureau bear, if any, regarding the 
costs of the extensive clean-up effort resulting for the fire?
    b. Will the Bureau work with the water users to determine a fair 
allocation of the equipment-related costs?
    Answer. I have been advised that during the performance of regular 
operations and maintenance, human error did occur at the John W. Keys 
III Pumping-Generation Plant on November 18, 2013. I have also been 
advised that Reclamation discussed a distribution of associated cleanup 
and repair costs with the Columbia Basin Irrigation Districts, and that 
the Districts are currently reviewing the proposed distribution.
    Question 22. Extreme drought has become a harsh reality in many 
parts of the Western U.S. over the past decade, and our reliance on our 
reservoir systems has never been higher. In the Colorado River Basin, 
stakeholders are moving forward to adopt contingency plans to prepare 
for future drought conditions in innovative ways. What do you believe 
is the Bureau of Reclamation's role in developing these drought 
contingency plans in the Colorado River Basin?
    Answer. There is no easy anser to solving the imbalance between the 
demand for water and the supply in the Colorado River Basin. It is 
going to take diligent planning and collaboration from all stakeholders 
to identify and move forward with practical solutions. If confirmed, I 
look forward to continuing Reclamation's work on finding solutions to 
drought conditions in the Colorado River Basin and, working with 
Congress and Basin stakeholders, using resources such as the Colorado 
River Basin Study, to explore actions we can take toward a sustainable 
water future.
    Question 23. Regarding storage as a way to address water needs in 
the West:
    a. Is there a demand for new sources of storage water in some 
basins?
    b. If so, how will we build this new water infrastructure in an era 
of declining federal budgets?
    Answer. I recognize that there is significant demand for new water 
storage within many river basins in the 17 Western states. Surface 
storage can be an important tool to alleviate drought and provide for 
sustainable water supplies during drought years. However, the current 
budget climate requires water managers to take a careful look at 
surface storage. Several factors that weigh on the feasibility of new 
surface storage include whether there is a sufficient customer base to 
provide for project reimbursement, whether there are more cost-
effective alternatives, and whether environmental impacts, safety, and 
geological challenges can be addressed. If confirmed, I look forward to 
exploring all options, including surface storage, to secure water 
supplies in the West.
       Response of Estevan Lopez to Question From Senator Cornyn
    Question 24. In your current capacity as Director of the New Mexico 
Interstate Stream Commission, would you please describe your 
involvement in the Rio Grande Compact case on behalf of the State of 
New Mexico? As the nominee for the Commissioner of the Bureau of 
Reclamation, the agency charged with managing the Rio Grande Project in 
New Mexico and Texas, if confirmed, will you recuse yourself completely 
from any personal involvement on behalf of Reclamation or the 
Department of the Interior in the Texas v. NM Supreme Court case?
    Answer. Because this is a matter in which the State of New Mexico 
and Interstate Stream Commission have been involved, I have been 
advised that, if confirmed, I will need to consult with the 
Department's ethics office on the extent to which I may participate in 
this matter.
     Responses of Estevan Lopez to Questions From Senator Barrasso
    Question 25. I understand that you are familiar with my bill-S. 
1800, the Bureau of Reclamation Transparency Act. This legislation 
would require the Bureau to compile its maintenance backlog in a report 
and make the report available to the public. My bill would also require 
the Bureau to update this report every two years. If confirmed, will 
you work with me to pass this bill so Congress can understand the 
Bureau's total maintenance backlog and take steps to address it?
    Answer. I appreciate your interest and that of the public in 
obtaining additional information regarding the Bureau of Reclamation's 
infrastructure by supplementing existing aging infrastructure reporting 
efforts. It is my understanding that the Bureau of Reclamation has 
provided you with some recommendations pertaining S. 1800. Although I 
have not been privy to these discussions, if confirmed, I look forward 
to working with you on this legislation.
    Question 26. If confirmed, what steps would you take to address the 
need to build more water storage in the West?
    Answer. I recognize that there is significant demand for new water 
storage within many river basins in the 17 Western states. Surface 
storage can be an important tool to alleviate drought and provide for 
sustainable water supplies during drought years. However, the current 
budget climate requires water managers to take a careful look at 
surface storage. Several factors that weigh on the feasibility of new 
surface storage include whether there is a sufficient customer base to 
provide for project reimbursement, whether there are more cost-
effective alternatives, and whether environmental impacts, safety, and 
geological challenges can be addressed. If confirmed, I look forward to 
exploring all options, including surface storage, to secure water 
supplies in the West.
      Responses of Estevan Lopez to Questions From Senator Heller
    Question 27. As you know, the Colorado River system is facing the 
worst drought on record. The water level of Lake Mead, which serves as 
a reservoir, the primary water source of the entire Las Vegas Valley, 
has dropped more than 100 feet since January 2000. As water levels at 
the lake decline, there will be a reduction of available Colorado River 
water for Southern Nevada and other communities that rely on that 
reservoir for use. Our communities have taken an active role in water 
conservation. Local business, such as our casino resorts, and local 
governments have implemented measures to reduce consumption and 
increase efficiency. They are continuously looking for other innovated 
ways to conserve this precious resource.
    What types of new policies do you believe Reclamation must 
prioritize to better manage the Colorado River Basin Water supply and 
will you commit to working closely with me and many of my other 
colleagues from Colorado River Basin states to develop policies that 
will ensure a secure water supply for our western communities as 
Commissioner?
    Answer. There is no easy answer to solving the imbalance between 
the demand for water and the supply in the Colorado River Basin. It is 
going to take diligent planning and collaboration from all stakeholders 
to identify and move forward with practical solutions. If confirmed, I 
look forward to continuing Reclamation's work on finding solutions to 
drought conditions in the Colorado River Basin and, working with 
Congress and Basin stakeholders, using resources such as the Colorado 
River Basin Study, to explore actions we can take toward a sustainable 
water future.
    Question 28. As a former state water official in a basin state, you 
had to work closely with the Department of the Interior on a variety of 
issues. How will you bring those local experiences you may have had 
with federal laws or agency actions to the Commissioner role?
    Answer. As I noted at my confirmation hearing, if confirmed I will 
bring with me over two decades of water resource management experience 
to the Bureau of Reclamation. In my various positions, including most 
recently as Director of New Mexico's Interstate Stream Commission, I 
have worked directly on many of the issues that affect water management 
throughout the western United States. I believe strongly in a 
transparent and collaborative approach to problem-solving and looking 
for ways to resolve environmental concerns while balancing the need for 
development consistent with the law. My work on interstate water 
compacts, Indian water rights settlements, rural water projects, and 
environmental compliance have required me to establish strong 
relationships with diverse stakeholders, including our neighboring 
states, local governments, Indian tribes, agriculture and municipal 
water users, power users and environmental interests. If confirmed, I 
look forward to bringing that experience to the Bureau of Reclamation.
    Question 29. I am familiar with many of the initiatives that 
Nevada's local utilities and communities have implemented to conserve 
water. Could you discuss some of the recommendations/initiatives the 
New Mexico state taskforce pursued and what you think basin states can 
do at the state and local level to better conserve scant water 
resources?
    Answer. As in Nevada, communities in New Mexico have implemented 
aggressive conservation programs. The cities of Santa Fe and 
Albuquerque, New Mexico are among the lowest per capita water use 
municipalities in the nation. On occasion, the New Mexico State 
Engineer has conditioned water rights transfer approvals on 
successfully meeting conservation targets. Regarding river management, 
careful coordination among federal, state and local water management 
entities of the timing and magnitude of water releases from reservoirs 
has allowed New Mexicans to meet critical water needs while remaining 
in compliance with endangered species flow targets. New Mexico is in 
the process of implementing its Active Water Resources Management 
program to build capacity to allocate water in times of shortage. This 
can be done according to the seniority of the water rights or according 
to voluntary shortage sharing agreements among water users. If 
confirmed, I look forward to evaluating the utility of these types of 
practices in other locales and evaluating the expanded utility of best 
management practices generally.
    Question 30. Based off your experiences at the state level, in what 
ways are federal environmental laws, particularly the Endangered 
Species Act, hamper, limit, or impede the Bureau from taking actions it 
needs to do to better manage our water supplies for the people of the 
west?
    Answer. I recognize that the application of the Endangered Species 
Act to western waters has often been the source of controversy and 
conflict. Severe drought conditions have only served to exacerbate 
these conflicts. As Director of New Mexico's Interstate Stream 
Commission, I am intimately familiar with this tension from my 
experience finding river management solutions to difficult endangered 
species issues on the Rio Grande, San Juan, Pecos and Canadian Rivers. 
In the Rio Grande, during last year's unprecedented drought, water 
managers were able to work with the Fish and Wildlife Service to find 
flexibility within the existing biological opinion. If confirmed, I 
will bring to bear my experience in New Mexico managing water supplies 
to develop strategies to cope with drought. Specifically, I intend to 
work to identify and maximize regulatory flexibility to adjust to 
changes in the weather and the environment to bolster water supplies 
when possible while minimizing the impacts to fish and wildlife.
    Question 31. What steps can be taken to reduce limitations on water 
delivery caused by such environmental laws?
    Answer. Although it is difficult to generalize what types of tools 
are available from one river basin to another, it has been my 
experience that there are often a range of activities available to 
water managers to ensure reliable water supplies while complying with 
environmental laws. In New Mexico for example, the Middle Rio Grande 
Endangered Species Collaboration Program has been an effective 
mechanism to conserve and help recover endangered species, attain 
regulatory compliance for all parties, and provide for existing, 
ongoing, and future water development and management activities. 
Specifically, the leasing of supplemental water, adjusting seasonal 
flows, improving riparian habitat, furthering conservation, and 
continuing to evaluate and develop mechanisms for making water 
available for ESA purposes while protecting existing uses have 
benefitted both water users and the endangered silvery minnow in the 
Middle Rio Grande.
    Question 32. Considering your experience on the Colorado River 
Basin Salinity Control Forum, what do you think can be done at the 
Bureau of Reclamation to improve the water quality and decrease the 
salinity of the river? In Specifically, can you address what kind of 
efforts the Bureau of Reclamation should prioritize to implement in the 
upper basin of the river to decrease the damages to the lower basin 
caused by the high salinity of the water?
    Answer. The Colorado River and its tributaries provide municipal 
and industrial water to about 33 million people and irrigation water to 
nearly four million acres of land in the United States. The salinity 
threat is a major concern in both the United States and Mexico. The 
Salinity Control Program is an important tool and has improved the 
water quality and decreased salinity in the Colorado River Basin 
significantly since its inception. Reclamation partners with the seven 
Colorado River Basin States (Basin States) and other federal agencies 
to reduce the annual salinity load in the Colorado River. I understand 
that Reclamation's salinity control programs account for 570,000 tons 
of that annual total salt reduction. One important priority for the 
Salinity Control Program is development of a salt removal alternative 
to the Paradox injection well which is nearing the end of its useful 
life and is the single largest salt removal facility on the River.
    I strongly support Reclamation's work to award grants for new 
projects sponsored by nonfederal entities to control salinity loading 
anywhere in the Colorado River Basin. I understand that use of the 
competitive process has greatly reduced the cost of salinity control. 
If confirmed,
    I will work to ensure Reclamation can continue to fund the 
Basinwide Program to continue this important work.
                                 ______
                                 
    Response of Monica C. Regalbuto to Question From Senator Manchin
    Question 1. Dr. Regalbuto, while the Office of Environmental 
Management does not oversee any sites in my state, budget overruns from 
that Office do affect DOE programs in West Virginia. How do you plan to 
prevent cost overruns in the multi-billion dollar budget?
    Answer. There are many challenges facing the Office of 
Environmental Management. Some cleanup work could not be adequately 
characterized when the current cost estimates were completed and as a 
result, the cost estimates were not always as accurate as hoped. If 
confirmed, I will work with EM federal and contractor employees, 
academia and industry to further improve project and contract 
management and determine how to mitigate cost overruns to the extent 
practicable through technology advancements.
  Responses of Monica C. Regalbuto to Questions From Senator Cantwell
    Question 1. The chemical vapor exposures suffered by Hanford 
workers are unacceptable. In the last 2 months, 28 people have become 
sick after being exposed to these vapors. In the public ``State of the 
Hanford Site'' meetings on April 29th in the Tri-Cities, workers asked 
for better access to personal protective equipment to prevent exposure.
    How do you respond to accusations that there has been retaliation 
against employees who have asked for personal protective equipment?
    How do you respond to claims that the study on tank vapors is not 
being conducted by an impartial third-party? The study is being 
conducted by Savannah River National Laboratory, and both Savannah 
River National Lab and Hanford are under the jurisdiction of the 
Department of Energy, suggesting a potential conflict of interest.
    Answer. Protecting workers at all of our sites is an important 
issue and a core principle for the Department and it will be my 
priority if confirmed. I am aware that at least 28 workers at Hanford 
have been evaluated this year after possibly being exposed to vapors or 
smelling odors in the tank farms. It is my understanding that the site 
is working with the Savannah River National Laboratory to conduct an 
independent technical review of this issue with a focus on not just 
studying, but solving the issue. SRNL has the technical depth and 
resources by virtue of its decades of experience with similar issues 
and its ability to access national recognized experts from across the 
country. In addition, National Laboratories uphold the highest 
scientific principles and conduct rigorous peer reviews. If I am 
confirmed, I expect to be very involved in Hanford, tank issues and 
developing ways to protect the workforce. I would be happy to work with 
you and the Washington State delegation on these important issues.
    Question 2. Hanford workers and the Union that represents many 
Hanford workers have expressed concern that after exposure, medical 
claims were not being adequately addressed. DOE has consolidated the 
administration of workers compensation claims across the Hanford 
complex at one contractor, Penser. There are concerns that Penser might 
seek to deny valid claims. The Hanford Atomic Trades Council has asked 
Washington State's Department of Labor and Industries to decertify 
Penser as a third party administrator over this issue.
    How do you response to these claims, and what would you do as 
Assistant Secretary to make sure that Hanford worker claims are 
addressed?
    Answer. Protecting workers at all of our sites is a core principle, 
and it will be my priority if confirmed. My understanding is that the 
authority to determine workers' compensation claims lies solely within 
the Washington State Department of Labor and Industries.
    If confirmed, I will ensure that DOE maintains open lines of 
communication with workers to address their concerns and be certain 
that the workers understand their rights under the workers' 
compensation laws.
    Question 3. The State of Washington and the Department of Energy 
are currently in an 8-week period of mediation to determine how to 
amend the Consent Decree, which is the agreed path forward for clean-
up. It is critical that all parties negotiate in good faith, in order 
to get the best outcome possible. If confirmed during this time, do you 
commit to negotiating with the State of Washington in good faith, and 
to establishing a more transparent timeline for clean-up activities?
    Answer. I am familiar with the key challenges associated with the 
Waste Treatment Plant. I am also aware that the Department of Energy 
and the state of Washington are engaged in good faith negotiations to 
try to reach agreement on an amendment to the Consent Decree. If 
confirmed, I am committed to continuing to work with the State of 
Washington on amending the Consent Decree as appropriate.
    Question 4. Technical difficulties related to the Waste Treatment 
Plant abound, yet our world-class scientific expertise at the Pacific 
Northwest National Laboratory is less engaged in Hanford clean-up than 
ever. As Assistant Secretary, would you further engage PNNL to guide 
the clean-up process? Can you tell me how you would go about ensuring 
that PNNL's expertise is fully utilized?
    Answer. I strongly agree that Technology Development and Deployment 
(TDD) activities conducted by the DOE national laboratories and other 
organizations are crucial to the Department of Energy's (DOE) mission 
of effectively remediating and closing contaminated sites on schedule 
and within budget. Investment in our TDD activities has a distinct 
potential to generate significant life-cycle cost savings in this 
mission. PNNL provides unique expertise. From 2003 to 2008, I served as 
the head of the Process Chemistry and Engineering Department at 
Argonne's Chemical Sciences and Engineering Division. If confirmed, my 
prior roles as a researcher and manager, as well as my previous 
position in the Office of Environmental Management, will enable me to 
effectively explore how the technical and scientific capabilities of 
all of our National Laboratories, including Pacific Northwest National 
Laboratory, can be better utilized for the Department's cleanup mission 
at Hanford and across the complex.
    If confirmed, I will continue to actively engage and leverage the 
expertise of PNNL and other national laboratories as EM executes its 
cleanup mission.
    Question 5. The President's budget request indicates that DOE is 
reducing its commitment to the Richland Operations Office. This office 
is in charge of protecting the Columbia River from contamination from 
the Site, and returning land to the community for both industrial use 
and for recreation, which will contribute to the economic health of the 
region. This is also the Office that is preparing to tell the Hanford 
story, and its contribution to U.S. victory in World War II, through 
the establishment of the Manhattan Project National Historical Park.
    Will you commit to keeping to the clean-up schedule that has been 
agreed to under the Tri-Party Agreement and Consent Decree, including 
the milestones already in place for both clean up and return of land to 
the community?
    Will you commit to maintaining the Richland Operations Office 
budget at about $1 billion?
    The current Director of the Richland Operations Office has 
announced his retirement, effective next month. Now is not the time for 
the Department to be dialing back on its commitment to return these 
cleaned-up lands to the community. I would like your commitment that 
you will find a new director who is committed to keeping work on 
schedule.
    Answer. Hanford workers and the Tri-City communities have made 
tremendous contributions to defending our nation. As Assistant 
Secretary I would work to ensure our obligation to cleanup Hanford 
remains a top priority for the Administration. The cleanup at Richland 
has been very successful in the past and it is important to keep making 
meaningful progress on cleaning up Hanford. If confirmed, I would work 
to ensure the new Manager of the Richland Operations Office is 
committed to this vision and that we work together with the State of 
Washington and other regulators to continue the progress on Hanford 
cleanup.
   Response of Monica C. Regalbuto to Question From Senator Heinrich
    Question 1. I think the job you are taking on may be one of the 
most technically challenging in the government. As recovery efforts get 
underway at the Waste Isolation Pilot Plant in New Mexico I urge you to 
make a trip out to Carlsbad to meet with the community. I agree with 
your assessment that reopening WIPP is the top priority; however, I 
found very troubling the litany of serious management failures cited in 
the two accident reports.
    What will be your approach to implementing the recommendations of 
the two reports of the accident investigation boards?
     In light of the substantial changes at WIPP in operations, design, 
and management that were recommend in the two accident reports, should 
DOE consider re-establishing independent oversight of the recovery and 
future operation activities at WIPP?
    Answer. As the Nation's first operating repository, WIPP is a 
critical asset to the Department and the nation. It is very important 
that the recovery efforts are done as safely and efficiently as 
possible while ensuring the safety of the workforce and the public. 
I've worked on many WIPP issues over the years, and while I am not 
personally involved in the recovery efforts at this time, I agree that 
EM and the Department must take a close look at the Accident 
Investigation Board reports for both incidents to determine what 
improvements need to be made across the board to ensure that WIPP will 
be reopened and operated safely. I understand that EM is now evaluating 
these reports and working on a Corrective Action Plan. If confirmed, I 
expect to be very involved in the WIPP recovery effort and I pledge to 
work closely with you and the New Mexico delegation on this important 
issue.
    Responses of Monica C. Regalbuto to Questions From Senator Wyden
    Question 1. At Hanford, a contractor fired a whistleblower 
employee--Donna Busche--who was listed in the contract as ``essential 
personnel''--and DOE did nothing. Hanford contractor personnel are also 
be being required to sign non-disclosure agreements to prevent them 
from disclosing problems in the future. I also understand that DOE 
personnel are being told to that they too will be punished if they 
disclose ``official use only'' information. If you are confirmed, what 
are you going to do to change the management culture in the DOE clean-
up program that intimidates and punishes those employees--both 
contractors and Federal employees--who come forward to raise concerns, 
especially at Hanford, but at all EM sites? Please include any contract 
modifications or other measures that you would institute to ensure that 
contractor personnel are not retaliated against, as in the case of Ms. 
Busche.
    Answer. The Department remains committed to improving the safety 
culture across the DOE complex. If confirmed, I will work to create a 
work environment in which employees feel safe from reprisal when 
raising safety concerns, where differing points of view are solicited 
and encouraged, management provides relevant and timely information to 
the workforce, and vigorous corrective action programs are effectively 
implemented. I understand that many of these actions to strengthen the 
safety culture have already been completed at Hanford, and many more 
are underway or planned. The Department and I clearly recognize the 
importance of having a robust safety culture in place at Hanford and 
across the DOE complex. If confirmed, as part of that process of 
improvement, I would consider all of the tools, including contractual 
measures, available to the Department. I am committed to working with 
you to ensure that this important work continues and that we achieve 
improvements that will keep our workers safe and enable us to complete 
our mission.
    Question 2. Intimidation of employees is not just a problem at 
Hanford. A 2012 Safety Conscious Work Environment (SCWE) self-
assessment at WIPP and the Carlsbad Operations Office found that 60 
percent of the Federal employees and 40 percent of the contractor 
employees reported that they did not believe they could confidently 
report safety concerns. That facility is now shutdown because of two 
recent accidents. Earlier this year, Hanford conducted a similar SCWE 
assessment. Please provide the results of that assessment.
    Answer. I am not personally familiar with the results of a recent 
SCWE assessment at Hanford. If confirmed, I will work with you on 
continuing to improve safety culture and provide you with the results 
of the SCWE assessment.
    Question 3. In March, DOE proposed to make a number of changes to 
the Hanford clean-up schedule under the Tri-Party Agreement. The State 
of Washington has proposed its own changes to the clean-up schedule 
that are focused on building new tanks and emptying out the oldest, 
leaking single-shell tanks. Those of us in Oregon have some thoughts of 
our own. To what extent will you, as the new Assistant Secretary for 
Environmental Management, be able to use your extensive experience in 
chemical engineering and nuclear materials to re-examine the Hanford 
plans that DOE has already come up with and take a fresh look at them?
    Answer. The tanks at Hanford hold 56 million gallons of radioactive 
and chemical waste. DOE is committed to completing the tank waste 
mission at Hanford. While continued safe management of the tanks and 
the waste is imperative, the best solution is still to safely 
immobilize and ultimately dispose of this waste. I agree with the 
phased approach outlined by Secretary Moniz in DOE's recent proposal to 
amend the consent decree. This approach is the foundation for an 
achievable and sustainable plan for putting this important mission back 
on track. If confirmed, I will use my expertise to further inform and 
refine, as needed, the path forward for the cleanup of Hanford, 
including the tank waste cleanup mission, and will work with you and 
the Washington State delegation on these important issues.
   Responses of Monica C. Regalbuto to Questions From Senator Portman
    Question 1. DOE is conducting decontamination and decommissioning 
(D&D) cleanup of the Portsmouth Gaseous Diffusion Plant (GDP) in 
Piketon, Ohio. What do you know of the cleanup effort? In your view, 
what are the current and future challenges that the site faces?
    Answer. I know that EM is responsible to clean up the contamination 
resulting from the plant's historical uranium enrichment operations and 
stabilize uranium hexafluoride cylinders. I also understand the 
Department is responsible for the decontamination and decommissioning 
(D&D) of the large Gaseous Diffusion Plant former leased to the US 
Enrichment Corporation. All these activities involve more than 300 
facilities, processing more than 200,000 metric tons of depleted 
uranium hexafluoride, and cleaning up contaminated groundwater and 
groundwater. The D&D is supported by appropriations and a uranium 
transfer program that allows the Department to obtain services from our 
contractor in exchange for the uranium. The future of that bartering 
program is dependent upon the uranium inventory and market analysis. I 
understand the local community and the state are very interested in the 
cleanup mission as it supports potential future re-industrialization of 
the site and jobs in an economically depressed area.
    Question 2. DOE is targeting completion of D&D and cleanup of the 
site by 2024.
    Do you think this target date is achievable given the current DOE 
funding request?
    What could be the potential impacts to taxpayers if this target 
date slips?
    Answer. I know that DOE has tasked the contractor to develop the 
Site-wide Lifecycle Baseline for the D&D project. This will result in 
the establishment of the overall lifecycle baseline for the site to 
which future scenarios for completion will be compared. My 
understanding is that once the overall lifecycle baseline is completed 
and we have completed our review, we will be better able to assess 
potential impacts. I look forward to working with you on this matter 
should I be confirmed.
    Question 3. The project employees approximately 2,000 employees. 
DOE was to have finalized its plans for building demolition and waste 
disposal for Portsmouth in 2012. In a letter to my office dated October 
21, 2013, Dr. David Huizenga wrote that his office planned ``to issue 
Proposed Plans and hold public comment periods for both projects in the 
spring and summer of 2014; and [planned] to complete the regulatory 
decision-making process by issuing two Records of Decision by September 
2014.'' It is my understanding, that given this schedule, the earliest 
work could begin would be January of next year. Is the schedule Dr. 
Huizenga outlined still valid?
    Answer. I am not aware of the detailed schedule for these decision 
documents, but my understanding is the regulators are working closely 
with DOE to move these decisions forward sometime late this summer or 
fall.
    Question 4. If confirmed will you prioritize the effort to finalize 
the building demolition and the waste disposal plans as soon as 
possible?
    Answer. If confirmed, I will work to prioritize the efforts as soon 
as possible.
    Question 5. It is my understanding that DOE recently re-interpreted 
a provision of OMB Circular A-11 to require that environmental 
restoration and D&D projects (including building D&D and onsite 
disposal facility construction) be funded through line item 
appropriations. Portsmouth GDP funding is impacted by this decision. I 
am told this interpretation will impose notification and funding 
requirements on these projects which will result in a loss of 
flexibility to address changing project conditions and which could lead 
to project delays. Will you commit to me, that if confirmed, to provide 
an explanation for why this change was made and to determine if DOE can 
continue to fund these projects through its operating funded accounts?
    Answer. If confirmed, I will examine this issue and discuss the 
changes with you as we work together to continue progress on EM's 
environmental restoration and D&D projects, including those at 
Portsmouth, consistent with applicable laws, regulations and policies.
    Question 6. DOE has been bartering uranium from its stockpile to 
the open market to help fund the cleanup at the Portsmouth GDP. The 
agency had limited itself to a target for uranium sales and transfers 
of no more than 10 percent of annual domestic fuel requirements for 
uranium. In 2012, I advocated for an increase to the uranium barter 
program to help cover a funding gap for the Portsmouth cleanup. To his 
credit, then Secretary Chu agreed to increase barters sales from 1,600 
to 2,400 metric tons per year. Before doing so, he ordered an 
independent study of its market impact. That study demonstrated the 
barter program does not have an adverse material impact on the domestic 
uranium mining, conversion, and enrichment industries. Last year, the 
uranium barter program generated more than $200 million in funding and 
was used exclusively to pay for important Environmental Management 
cleanup activities at Portsmouth. Without these funds, it is clear that 
significant job impacts would have occurred and cleanup would have 
slowed down. Beyond the important employment and cleanup benefits of 
the barter program, it should also be noted that the barter funds 
directly offset an equal amount of taxpayer funds and therefore reduces 
our annual budget deficit. Secretary Moniz testified before this 
Committee last year that he intends to continue the barter program and 
to use it to help fund the ongoing Portsmouth GDP cleanup activities. 
If confirmed, will you also support the bartering program?
    Answer. I understand just this month the Secretary issued the most 
recent determination permitting the Department to continue to make the 
uranium transfers to fund accelerated cleanup. The continuation of this 
program is consistent with the Department's principles and policies and 
helps to fund important cleanup at Portsmouth GDP. If confirmed, I will 
support the continued use of the barter program.
    Question 7. It is my understanding that DOE formulated its fiscal 
year 2015 budget request for the Portsmouth site based on an estimate 
that FY2015 barter proceeds would be approximately $188 million. Over 
the past several months, uranium prices have declined and the projected 
barter proceeds for FY2015 are now less than $188 million. If 
confirmed, what measures will you pursue to cover a gap in funding 
Portsmouth D&D in FY2015 caused by lower uranium prices should a gap 
occur?
    Answer. Senator, I am very concerned about the falling uranium 
prices and their impact on our cleanup mission. If confirmed, I will 
work with Congress and internally within the Department to assess what 
measures are available to cover any potential gap in funding due to 
lower uranium prices.
  Responses of Monica C. Regalbuto to Questions From Senator Murkowski
    Question 1. I am very concerned about the radiation leak that 
occurred on February 14 at the Waste Isolation Pilot Plant in New 
Mexico. Recent reports suggest that the roof and walls of Panel 7 in 
the WIPP facility remain intact and may not be the cause of the leak. 
The cover bags, however, were damaged.
    Has the cause been determined yet?
    Were the containers those bags protected also damaged?
    When will the facility be re-opened?
    Answer. I understand that while the recovery teams were in the 
underground at WIPP, they discovered damage to magnesium oxide bags in 
the area that is believed to be the location of the release event. I am 
told that samples are being analyzed and recovery teams are continuing 
their work to determine the cause of the release. I believe the focus 
must be on safely executing recovery efforts as EM and the site work to 
reopen WIPP. If confirmed, I expect to be very involved in the WIPP 
recovery effort and I pledge to work closely with you and the New 
Mexico delegation on this important issue.
    Question 2. In the absence of new legislation on the back-end of 
the fuel cycle what options exist for DOE to address the pressing 
question of what to do with the civilian spent nuclear fuel that 
continues to accumulate at nuclear facilities across the country? What 
are your thoughts on the comingling of defense and civilian nuclear 
waste? Are there any specific challenges or issues you see with this 
option?
    Answer. In the absence of new legislation, I know that the 
Department is engaged in research and development activities and 
integrated waste management activities, consistent with the 
Administration's Strategy for the Management and Disposal of Used 
Nuclear Fuel and High-Level Radioactive Waste. In addition, from my 
role in the Office of Nuclear Energy, I have led a team within DOE that 
has taken a comprehensive look at the inventory of DOE-managed high 
level waste and spent nuclear fuel and the options for disposal of some 
of these waste streams either in a so-called ``commingled'' repository 
or, potentially in a separate defense-only repository. If confirmed, I 
look forward to working with you on issues surrounding the disposition 
of defense waste within the Environmental Management program.
    Question 3. I understand that you have led work on various aspects 
related to the transportation of spent nuclear fuel from shutdown power 
plants. Would you please provide me with a brief summary of what these 
studies have yielded thus far? What are the challenges and potential 
solutions you think exist in dealing with spent nuclear fuel both at 
the shutdown and operating sites?
    Answer. I can assure you that the Department is working on various 
aspects related to the transportation of spent nuclear fuel. If 
confirmed, I would be happy to work with you further on this issue.
  Responses of Monica C. Regalbuto to Questions From Senator Barrasso
    Question 1. In September 2011, the Government Accountability Office 
(GAO) issued a report finding that the Department of Energy (DOE) 
violated Federal law in seven transactions in which DOE transferred 
uranium to two contractors in exchange for clean-up services. 
Specifically, GAO found that DOE violated the miscellaneous receipts 
statute (31 U.S.C. 3302(b)) when transferring 1,873 metric tons of 
natural uranium to pay for $256 million in clean-up services.
    During your tenure at the Office of Environmental Management, did 
you have any role in the transactions that were the subject of GAO's 
September 2011 report? If so, please fully describe your role.
    On May 15, 2012, Secretary Chu issued a Secretarial Determination 
authorizing uranium transfers from DOE.
    During your tenure at the Office of Nuclear Energy, did you have 
any role in the May 15, 2012 Secretarial Determination or any work that 
served as a basis for that determination? If so, please fully describe 
your role.
    Secretary Chu's May 15, 2012 Secretarial Determination states that 
the authorized sales and transfers of uranium ``will not have an 
adverse material impact on the domestic uranium mining, conversion, or 
enrichment industries.'' Since May 15, 2012, the U.S. spot price of 
U3O8 has fallen over 44 percent, from an estimated $52/lb. on May 15, 
2012 to $29/lb. on May 9, 2014. I understand that is the lowest price 
for U3O8 since July 2005. It is also less than the $36.57 that the 
Energy Information Administration (EIA) says it costs to produce a 
pound of U3O8 in the U.S and far less than the $62.41 that EIA says it 
costs to produce a pound of U3O8 in the U.S. when total expenditures 
(excluding exploration costs) are considered. On May 1, 2014, EIA 
released its 2013 Domestic Uranium Production Report. That report 
explains that there has been over a 19 percent drop in employment in 
uranium exploration and mining between 2011 and 2013.
    Do you believe Secretary Chu's Secretarial Determination has proven 
correct and that the sales and transfers of uranium authorized on May 
15, 2012 have not had an adverse material impact on the uranium mining 
industry in the U.S.? If so, why?
    Answer. During my time with EM, I worked in the Office of 
Engineering and Technology which was charged to reduce the technical 
risk and uncertainty in the Department's multi-billion dollar cleanup 
program; provide technical solutions where none existed and provide 
innovative solutions that enhanced safety and operating efficiency. I 
did not have a role in the transactions that were the subject of GAO's 
September 2011 report. However, I am aware that this issue is very 
complicated and that the Department issued a lengthy response to the 
GAO that reflects their position that the transfers were compliant with 
applicable statutory obligations.
    The domestic uranium industry plays an important role in our 
nuclear fuel supply. Robust uranium supplies provide competition in the 
fuel market to help ensure reliable and affordable nuclear power 
generation. The health of the domestic uranium industry has long been a 
factor in DOE's overall uranium strategy. If confirmed, I will ensure 
that any uranium transfers continue to comply with applicable statutory 
obligations. As part of that process, I will look at implications for 
the uranium mining industry of covered sales or transfers. I will work 
to ensure that the Secretary has sufficient information to make a 
determination on this important issue.
    Question 2. In your testimony, you state that: ``The Environmental 
Management program has before it some of the most complex, challenging 
cleanup work, and accomplishing our goals will mean applying innovative 
strategies to one-of-a-kind challenges.'' If confirmed, would you apply 
``innovative strategies'' that include transferring, bartering, or 
selling DOE's excess uranium inventory?
    Answer. If confirmed, I will promote scientific and technological 
innovation in all manners of the Office of Environmental Management 
mission including the uranium transfer program. If confirmed, I will 
work to ensure that any future transfers of uranium continue to comply 
with the law and are transparent, and I would also look forward to 
working with you further on this important issue.
    Question 3. If your answer to Question 4 is yes, what, if any, 
steps would you take to: (A) ensure that any future transfers, barters, 
or sales of uranium comply with section 3112(d)(2)(B) of the USEC 
Privatization Act (42 U.S.C. 2297h-10(d)(2)(B)); and (B) increase the 
transparency of future transfers, barters, or sales of uranium?
    Answer. If confirmed, I will work to ensure that any future 
transfers of uranium continue to comply with the law and are 
transparent, and I would look forward to working with you further on 
this important issue.
    Question 4. Please provide the Committee with an estimate of what 
the Office of Environmental Management intends to spend on the 
decommissioning and clean-up work for the current fiscal year as well 
as each of the next two fiscal years.
    Answer. My understanding is that the Office of Environmental 
Management will spend on the order of $598M in FY2014 and is requesting 
some $530M in FY2015 for the continued D&D of the gaseous diffusion 
plants located in Oak Ridge, Tennessee; Portsmouth, Ohio; and Paducah, 
Kentucky.
    Response of Monica C. Regalbuto to Question From Senator Heller
    Question 1. As you likely know, I am extremely vocal with my 
serious concerns about the safety of the Yucca Mountain Nuclear Waste 
Repository and the suitability of Southern Nevada as the resting place 
for our nation's spent nuclear material. I recognize the need to 
address our nation's problem with spent nuclear fuel, but it must be 
solved through careful consideration of all alternatives based on 
credible scientific information. And most importantly, and plan must be 
rooted in state consent. The State of Nevada, a state without any 
nuclear power plants, has been clear that it does not want the nation's 
spent fuel.
    Given the state of Nevada's opposition to Yucca Mountain Nuclear 
Waste Repository, do you believe that the nation should look past Yucca 
and towards consent-based siting for long-term spent fuel storage, a 
policy consistent with the President's own January 2012 Blue Ribbon 
Commission report?
    Answer. The Administration embraces the principles of the 
Commission's core recommendations and support the goals of the 
establishing a new, workable, long-term solution for nuclear waste 
management. Any workable solution for the final disposition of used 
fuel and nuclear waste must be based not only on sound science but also 
on achieving public acceptance. The Administration believes a pathway 
similar to what the Blue Ribbon Commission laid out--a consent-based 
solution for the long term management of our used fuel and nuclear 
waste--is one that meets the country's national and energy security 
needs.
    I understand that the Department is working in support of the 
President's Blue Ribbon Commission recommendations and approach and if 
I am confirmed, I will continue to support the Department and the 
Administration's pathway to finding a workable solution for long term 
nuclear waste management.
    Question 2. As you know, DOE and the State of Nevada have been in 
discussions regarding the shipment of low-level nuclear waste from Oak 
Ridge, Tennessee to the Nevada National Security Site, located 
approximately 65 miles northwest of Las Vegas. Last year, when DOE's 
decision to bring the shipments to Nevada came to light, 
understandably, it caused public concern. I remain concerned about any 
plan to bring nuclear waste to Nevada, but I am encouraged with the 
increased collaboration and progress made since the DOE-Nevada Working 
Group was formed.
    As Assistant Secretary, will you commit to continuing the work of 
the DOE-State of Nevada Working Group?
    Answer. I am aware of this issue and I certainly appreciate its 
importance to you and the State of Nevada. I understand that the 
Secretary and Governor Sandoval created a working group, and am pleased 
to hear you are encouraged by the progress made thus far. I believe it 
is critical to continue an ongoing dialogue between Nevada and DOE, and 
should I be confirmed, I pledge to continue those efforts.
    Question 3. Can you commit to work with the State of Nevada and the 
Nevada Congressional Delegation to address the transportation, 
transparency, and collaboration issues associated with the ongoing 
mission of the Nevada Nuclear Security Site?
    Answer. If confirmed, I would be happy to work with you, the Nevada 
Congressional Delegation and the State of Nevada on issues of 
importance to Nevada National Security Site.

                                    

      

</pre></body></html>
